<html>
<title> - TRANSPORTATION SECURITY ADMINISTRATION'S TRANSPORTATION WORKER IDENTIFICATION CREDENTIAL (TWIC) PROGRAM</title>
<body><pre>[Senate Hearing 109-1112]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 109-1112
 
    TRANSPORTATION SECURITY ADMINISTRATION'S TRANSPORTATION WORKER 
                IDENTIFICATION CREDENTIAL (TWIC) PROGRAM 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 16, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

64-227 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office, Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDDC, Washington, 
DC 20402-0001
















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director






















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 16, 2006.....................................     1
Statement of Senator Inouye......................................     2
    Prepared statement...........................................     2
Statement of Senator Pryor.......................................    14
Statement of Senator Stevens.....................................     1

                               Witnesses

Cummings, George P., Director of Homeland Security, Port of Los 
  Angeles, City of Los Angeles Harbor Department.................    17
    Prepared statement...........................................    19
Himber, Lisa B., Vice President, Maritime Exchange for the 
  Delaware River and Bay; Vice-Chair, National Maritime Security 
  Advisory Committee (NMSAC).....................................    20
    Prepared statement...........................................    22
Jackson, Hon. Michael P., Deputy Secretary, Department of 
  Homeland Security..............................................     3
    Prepared statement...........................................     5
Willis, Larry I., General Counsel, Transportation Trades 
  Department, AFL-CIO............................................    27
    Prepared statement...........................................    28

                                Appendix

American Trucking Associations, Inc. (ATA), prepared statement...    41
Kneeland, James, Director, Project Management Office, Florida 
  Department of Highway Safety and Motor Vehicles; and Florida 
  Highway Patrol Colonel Billy Dickson (Retired), Florida UPAC 
  TSA Liaison, joint prepared statement..........................    43
Response to written questions submitted by Hon. Daniel K. Inouye 
  to 
  Hon. Michael P. Jackson........................................    49
Response to written questions submitted by Hon. Ted Stevens to:
    George P. Cummings...........................................    55
    Lisa B. Himber...............................................    52
    Hon. Michael P. Jackson......................................    49


                        TRANSPORTATION SECURITY
                    ADMINISTRATION'S TRANSPORTATION
            WORKER IDENTIFICATION CREDENTIAL (TWIC) PROGRAM

                              ----------                              


                         TUESDAY, MAY 16, 2006

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:40 a.m. in 
room SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Well, we apologize. It's hard to set the time 
for commencing a hearing now, with the process we're going 
through on the immigration bill. We do thank you very much. We 
want to welcome the witnesses who will appear before the 
Committee, and thank them for their willingness to participate 
in this hearing.
    The purpose of our hearing is to examine the status of 
TSA's Transportation Worker Identification Credential, commonly 
known as the TWIC program. The emphasis of our discussion will 
be to review policy and management issues that have prevented 
TSA from fully launching this program.
    The Commerce Committee first authorized the Transportation 
Worker Credential in the Aviation Transportation Security Act 
of 2001, then again in 2002 and 2004, when the Committee 
developed and reauthorized the Maritime Transportation Security 
Act. These laws authorized the development and issuance of 
biometric security cards to transportation workers who 
satisfied background checks for entry to secure areas in the 
maritime as well as secure transportation facilities.
    In authorizing the TWIC program in each of these measures, 
this committee recognized that our ability to secure the 
Nation's ports hinges upon our ability to verify, in a timely 
manner, the identity of port workers and prevent unauthorized 
access to secure maritime areas when necessary. The current 
inability of port operators to identify who's on their property 
at any given time should be considered a significant security 
vulnerability that must be addressed immediately.
    Evidence of the need to verify the identities of workers at 
our ports occurred in my home state in 2003 during the 2-day 
lockdown of the Alyeska Pipeline terminal at the Port of Valdez 
during a heightened terrorism alert. Terminal officials spent 
hours sifting through the employee documentation databases in 
an effort to determine who was on the port premises. Had the 
TWIC program been in place, officials would have been able to 
quickly determine which employees were authorized to be in 
secure areas of the terminal, which would have allowed 
officials to focus on the threat situation.
    Despite a stipulation among stakeholders that interoperable 
TWIC programs would significantly enhance security at the 
Nation's ports, the program has experienced internal and 
external challenges. While TSA has struggled with timely 
decisionmaking, vendors, port authorities, states, and other 
stakeholders have complained about the lack of communication. 
Secretary Chertoff announced, on April 25, that DHS would begin 
conducting name-based background checks on the initial group of 
400,000 maritime workers throughout the U.S. This is an 
encouraging step toward full realization of the program, but it 
has been over three and a half years since Congress first 
authorized the Transportation Workers Credential. Therefore, 
Senator Inouye and I have introduced, along with 40 other 
cosponsors, a bill that would set a hard deadline for TSA to 
launch the program. We believe the program is too vital to port 
security to risk more delays.
    We look forward to seeking answers in questions today. We 
thank you very much for coming. I want to state that I have 
examined both the Los Angeles Port and the Seattle Port, and 
had a full briefing in Seattle of their security measures. 
They're very costly security measures, I might add. And so, we 
can understand some of the delay.
    Senator Inouye?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Well, I thank you very much. As you've 
indicated, Mr. Chairman, this program has been plagued by cost 
overruns and missed deadlines, and has produced few positive 
results.
    A background check program, for example, of truck drivers 
driving hazardous materials has been criticized for its poor 
conception and high cost. The program for the maritime sector, 
by most accounts, is still at least 2 years away. And I join 
the Chairman in offering our assistance in bringing this matter 
to some resolution. There are many people who are nervous about 
this, and I commend you for what you're doing, but I think you 
need some of our help.
    Thank you very much. May I have the whole statement made 
part of the record?
    The Chairman. Without objection, yes, sir.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Following the attacks on September 11, 2001, the Congress 
recognized that it not only had to improve the security of the Nation's 
transportation infrastructure, it had to improve the security of its 
transportation workforce as well.
    The Transportation Workers Identification Credential (TWIC) program 
was specifically created to provide thorough and efficient background 
checks of all transportation workers, yet 5 years later, the program 
has made very little progress.
    As required by the Aviation and Transportation Security Act (ATSA), 
the Administration was able to conduct hundreds of thousands of 
background checks on airline employees in a relatively short time 
period. This speedy effort to evaluate aviation workers helped restore 
the traveling public's confidence in commercial air service and helped 
minimize the economic damage. As a result, air travel continues to 
expand and is now in greater demand than at any previous point in 
aviation history.
    Because of the Congress's direction and the tragedy's impact on the 
economy, the Administration acted with an extreme sense of urgency in 
the immediate, post-September 11 environment when it came to aviation. 
That sense of urgency has all but disappeared for other modes, and the 
Administration's work on TWIC proves it.
    The program has been plagued by cost overruns and missed deadlines 
and has produced few positive results. The background check program for 
truck drivers driving hazardous materials has been criticized for its 
poor conception, redundancies, and high costs. The program for the 
maritime sector, by most accounts, is still at least 2 years away from 
being deployed.
    There have been no successful attacks on our transportation systems 
since September 11, and while that is obviously laudable, it is no 
guarantee of future success. The TWIC program is an important component 
of our transportation security system, and it must move forward. It has 
remarkable potential to eliminate key vulnerabilities and improve 
operational efficiency.
    This potential can only be achieved if the requisite sense of 
urgency is restored. If the Transportation Security Administration 
(TSA) cannot motivate itself to turn TWIC around, then it will be up to 
Congress, through far more vigilant oversight, to provide the 
motivation. Too much time and money have been wasted already.

    The Chairman. And your statement will appear in the record 
in full, Mr. Jackson. We thank you very much.
    We're going to hear first from Michael P. Jackson, the 
Deputy Secretary of the Department of Homeland Security.
    Thank you, sir.

             STATEMENT OF HON. MICHAEL P. JACKSON, 
       DEPUTY SECRETARY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Jackson. Mr. Chairman, thank you very much for having 
me here today. And, Senator Inouye, thank you for your support, 
as well as that of the Chairman, for this important program.
    I know of the work of this Committee from my time as Deputy 
Secretary of Transportation, and I know of the founding-father 
role that was played in this Committee to help make TWIC an 
important priority for this Nation. I will tell you that 
Secretary Chertoff, myself, the TSA share this commitment. The 
Coast Guard has to participate; it shares this commitment. CBP 
is in a supporting role; and they share this commitment.
    We did a review, when Secretary Chertoff came onboard, of 
things that needed doing that were taking too long. This was 
definitely on the list of those topics. We have done a thorough 
scrub of the pilot phase of this. I will say that it was harder 
than perhaps was anticipated at first, and more complex. We 
have integrated the work that's being done here to other 
Federal programs and other standard-setting activities so that 
we have a solid base technologically and operationally by 
consulting with our stakeholders in this. But I will tell you 
today that this has the highest priority commitment of the 
Department for a deployment that we will say will begin this 
year in issuance of TWIC cards for maritime workers.
    So, Mr. Chairman, I'll just be very brief in providing a 
top-line overview, and then be happy to answer questions about 
how we'll make good on that commitment.
    What I would tell you is just a brief word about the 
context for this. The legislation that you're working on in the 
maritime world, and our discussions of maritime security, have 
this placed into a context. We're worried about--four things 
that we're worried about: ships, workers, cargo, and 
facilities. And we're worried about having to find good tools 
to use--or we're focused on finding good tools to use in those 
four categories at home and abroad. So, ships, cargo, people, 
facilities.
    This discussion of bringing greater clarity to who is 
having unescorted access to our port facilities is an 
absolutely crucial component of that overall mix of the layered 
system of systems that we need to bring to the maritime domain. 
I would just say that the way to get this out on the street and 
operating begins with a rulemaking process and a procurement 
process. It is leveraging the significant work that we've done 
as a pilot with three state areas and multiple facilities 
within those areas. We will start with a procurement that's--I 
mean, a piece of regulatory work that's on the table right now 
at the Federal Register. This lays the framework for how we 
integrate the Coast Guard programs, and they're responsible, 
under the maritime security regime, MTSA, and how this TWIC 
process fits into it. That's a NPRM that will have a relatively 
quick turnaround. We hope that will allow us, this summer, to 
get a final rule out on the street and have the architectural 
framework of how we will implement this, clear and certain, for 
all of our constituents in the private sector.
    Second, we will undertake a procurement which we have 
launched. Today we will put out a solicitation for qualified 
candidates to allow us to narrow the field of candidates that 
will be capable of helping us manage some of the core work of 
the TWIC deployment.
    So, the combination of rules and the procurement to get the 
private-sector partner necessary to help us integrate this will 
give us the core elements of moving forward.
    What that procurement does is allow us to have a single 
integrator that will help work issues, from the capture of 
biometric identifiers and the data that's needed for enrollment 
through the process of managing the vetting and integration of 
the data management to check for the various areas of security 
clearance, which are criminal history record checks, terrorist 
watch-list checks, legal immigration status, outstanding wants 
and warrants.
    So, we will have that integration. We will pass off the 
decisions to TSA to approve or disapprove any questionable 
cases, and we will then manage a card production and 
distribution cycle.
    So, these are the core moving parts of what we need as 
tools to get this done, and we're committed to moving these at 
the very fastest pace consistent with discipline, economic and 
effective procurement, and regulatory work.
    So, perhaps, sir, that--I would just stop with that brief 
overview of the moving parts. My written testimony describes 
this in more detail. And I'd be grateful, honestly, to help you 
unpack this in any way that would be useful.
    I would just say, in conclusion, that we do very much 
appreciate the focus that this Committee brings to pressing on 
the urgency of TWIC. I will tell you the leadership team, 
again, shares that very much.
    [The prepared statement of Mr. Jackson follows:]

   Prepared Statement of Hon. Michael P. Jackson, Deputy Secretary, 
                    Department of Homeland Security
    Good morning Chairman Stevens, Co-Chairman Inouye, and 
distinguished members of the Committee. Thank you for this opportunity 
to speak with you about the Transportation Worker Identification 
Credential (TWIC) program. The good news is that we are finally rolling 
this program out: two rulemakings and a procurement are now under way.
    I am particularly grateful to this committee for its leadership in 
defining a vision and requirements for TWIC. In my previous position as 
Deputy Secretary of the Department of Transportation, I saw firsthand 
the commitment of the members of this committee to TWIC. I think what 
DHS has done with our TWIC pilot test has produced real value--added by 
helping us create a program that will achieve our security goals, while 
also making good business sense. As we begin deployment, DHS will be 
building essential tools that we can use to streamline and coordinate 
credentialing and screening programs throughout the Department.
    The two rulemakings that we have just initiated will align our 
current maritime security regulations with the framework of the TWIC 
program and credential. The procurement that we have announced seeks a 
single integrator to perform both the intake function of processing 
applicants for cards and also managing important parts of the data 
integration system. This system will connect each step in the 
credentialing process from intake, to background check, to card 
issuance. These rulemakings and procurement are the key steps to 
launching the TWIC program as a lynchpin of port security. We must know 
who has access to our ports and must have the ability to deny access to 
those who pose a security threat. Fundamental to our approach as we 
implement these steps to improve port security, is our commitment to do 
so without adversely affecting, either economically or logistically, 
our international trading system.
    My testimony today will cover the following points:

  <bullet> The Coast Guard's recent rule change on biographic 
        background checks--we are not waiting for the full TWIC roll-
        out but intend to get initial security benefits immediately;

  <bullet> The rulemakings and their alignment with both the Maritime 
        Transportation Security Act (MTSA) and the Merchant Mariner 
        Credential; and

  <bullet> The TWIC program framework, business model and 
        implementation plans.

Background
    Maritime security is an important part of our overall homeland 
security. TWIC will be a key component in a layered security system. It 
will complement our efforts both at home and abroad including cargo 
security tools, radiological and nuclear detection, the Customs-Trade 
Partnership Against Terrorism, the Container Security Initiative, and 
MTSA port facility programs. Security cannot be delivered via a single, 
silver bullet solution. This is particularly true with regard to the 
maritime sector. There, a layered system of security is needed to deal 
with the vast scale of the global system in which security 
responsibility is shared, where there is a multiplicity of private-
sector actors that have primary responsibility for implementing and 
performing most of the frontline security duties, and where the 
interests of numerous foreign governments must be addressed.
    Domestically, an estimated 750,000 workers currently have 
unescorted access to our ports. To secure the 361 domestic port 
facilities, the Coast Guard, working with port operators, has approved 
the designation of certain ``secure areas'' within each maritime 
facility and vessel to which longshoremen, truckers and vessel crews 
would need a secure biometric identification credential in order to be 
granted unescorted access.
    The TWIC deployment includes accelerated and parallel rulemakings 
by both TSA and Coast Guard. It also includes a much needed procurement 
to help launch the operational program. Secretary Chertoff has given 
his team instructions to get this done as quickly as possible. This 
tool will add another valuable layer of security to domestic port 
operations and will strengthen overall supply chain security.
Coast Guard Requires Interim Step of Biographic Background Checks
    As a significant prelude to the final rollout of TWIC, the Coast 
Guard has exercised its legal authority to publish a notice requiring 
approved identification credentials for access to MTSA-regulated 
facilities. For certain credentials, this involves a preliminary 
biographic background check. The Coast Guard and TSA consulted with our 
industry partners to develop a process that compares a worker's 
biographical information against our terrorist watch lists and 
immigration databases. TSA has already begun to conduct these 
background checks, and any workers who pose a security risk will be 
denied access to these facilities.
    The process is straightforward. Facility owners, facility operators 
and unions seeking a background check will submit an individual's name, 
date of birth, and, as appropriate, alien identification number to the 
Coast Guard. To speed up the review process, an individual's Social 
Security number may be submitted, but is not required. This information 
will allow TSA to vet workers against terrorist watch-lists through the 
Terrorist Screening Center. Moreover, these checks also include a 
review of a worker's immigration status, conducted by the U.S. 
Citizenship and Immigration Service using its Central Index System. As 
with other sectors of our economy, we will not tolerate the employment 
of illegal workers at our Nation's ports or within any part of the 
maritime infrastructure.
    This initial round of background checks, for which we have already 
begun to receive names, will cover an estimated 400,000 port workers 
and will focus first on employees and longshoremen who have daily 
access to the secure areas of port facilities.
Aligning Current Maritime Security Requirements With TWIC
    Following enactment of MTSA in November 2002, the Coast Guard 
issued a series of general regulations for maritime security. Those 
regulations set out specific requirements for owners and operators of 
vessels, facilities, and Outer Continental Shelf facilities that had 
been identified by the Secretary as posing a high risk of being 
involved in a transportation security incident. Accordingly, owners and 
operators of these vessels and facilities were required to conduct 
security assessments, create security plans specific to their needs, 
and submit the plans for approval to the Coast Guard by December 31, 
2003. All affected vessels and facilities are required to have been 
operating in accordance with their respective plans since July 1, 2004, 
and are required to resubmit plans every 5 years.
    Each plan requires owners or operators to address specific 
vulnerabilities identified pursuant to their individual security 
assessments, including controlling access to their respective vessels 
and facilities. Most significantly, MTSA regulations require owners/
operators to implement security measures to ensure that an 
identification system is established for checking the identification of 
vessel and facility personnel or other persons seeking access to the 
vessel or facility.
    In establishing this initial identification system, owners/
operators were directed to accept identification only if it: (1) was 
laminated or otherwise secure against tampering; (2) contained the 
individual's full name; (3) contained a photo that accurately depicted 
the individual's current facial appearance; and (4) bore the name of 
the issuing authority. The issuing authority had to be a government 
authority or organization authorized to act on behalf of a government 
authority, or the individual's employer, union or trade association. 
There was no requirement that the identification be issued pursuant to 
a security threat assessment because there was no existing credential 
and supporting structure that could fulfill the needs specific to the 
maritime environment at the time those regulations were created.
    Now that the credential and supporting structure for TWIC has been 
developed, it must be integrated into this pre-existing security 
program though amendments to the current regulations. While not 
prejudging the rulemaking process, I can state that we generally expect 
to adhere to the procedures that TSA has used to regulate the licensing 
of drivers who transport hazardous materials.
    The Merchant Mariner Credential. Because MTSA in essence requires 
the TWIC for all U.S. merchant mariners, the Coast Guard took this 
opportunity to revise its merchant mariner credentialing system to 
streamline the process and remove any duplicative requirements that 
would exist as a result of the TWIC rulemaking. This was done through a 
separate rulemaking that will publish simultaneously with the TWIC 
rulemaking.
    Under the current regulatory scheme, the Coast Guard may issue a 
mariner any combination of 4 credentials: (1) Merchant Mariner Document 
(MMD); (2) License; (3) Certificate of Registry (COR); or (4) Standards 
of Training, Certification, and Watchkeeping (STCW) Endorsement. The 
License, COR and STCW Endorsements are qualification credentials only. 
Only the MMD is an identity document, and none of the current mariner 
credentials contain the biometric information required under MTSA. 
Because of this, the Coast Guard has drafted a proposed rule that would 
combine the elements of these 4 credentials into one certificate called 
the Merchant Mariner Credential (MMC). The MMC would serve as the 
mariner's qualification credential, while the TWIC would serve as the 
mariner's identification credential. Mariners would have to have a TWIC 
before they could be issued an MMC.
    To further ease the burden on mariners who now must appear at one 
of 17 Coast Guard Regional Examination Centers (RECs) at least once in 
the application process, the Coast Guard and TSA have come to an 
agreement to share information submitted in the TWIC application 
process. As proposed in this MMC rulemaking, TSA would provide the 
Coast Guard with electronic copies of the applicant's fingerprints, 
proof of identification, proof of citizenship, photograph, and if 
applicable the individual's criminal record, FBI number and alien 
registration number. This information would then be used in reviewing 
the applicant's safety and suitability for the credential and the Coast 
Guard would not conduct an additional security threat assessment. 
Applicants would no longer be required to visit an REC unless they had 
to take an examination. This proposed change is expected to result in 
cost savings to the public as much of the inland population currently 
must travel great distances to reach an REC.
    The consolidation of qualifications credentials and a further 
streamlining of other mariner regulations is a positive and meaningful 
development that will ensure that no mariner is required to undergo 
more than one security threat assessment or criminal background history 
check.
The TWIC Program
    National security interests require that individuals seeking 
unescorted access to MTSA regulated vessels and facilities be properly 
identified and undergo appropriate security vetting. Furthermore, 
facilities and vessels need a reliable tool for identifying those 
individuals who have been granted such access. For that reason, TSA has 
been developing the TWIC, which is a 21st century identification card 
for transportation workers. The TWIC card will include biometric 
technology that is intended to make it virtually impossible for the 
card to be used by anyone other than the person to whom the card was 
issued. Although implemented only in the maritime sector now, in time 
TWIC is expected to streamline the background check procedure across 
our Nation's transportation system.
    The TWIC maritime program has been designed to satisfy the 
following mission goals:

  <bullet> Identify authorized individuals who require unescorted 
        access to secure areas of MTSA-regulated facilities and 
        vessels;

  <bullet> Determine the eligibility of an individual for access 
        through a security threat assessment;

  <bullet> Ensure unauthorized individuals are denied access through 
        biometric confirmation of the credential holder;

  <bullet> Revoke immediately access for individuals who fail to 
        maintain their eligibility;

  <bullet> Apply privacy and security controls to protect TWIC 
        information; and

  <bullet> Fund the program entirely by user-fees.

    To achieve these goals, TSA and the Coast Guard promulgated a joint 
TWIC notice of proposed rulemaking (NPRM) for the maritime sector. 
Under Secretary Chertoff's direction, the joint rulemaking process 
between the Coast Guard and TSA has been accelerated. Both the NPRM as 
well as the Coast Guard's rule on the Merchant Mariner Card were sent 
to the Federal Register on May 10 and it has been posted on TSA's web 
page. Under the joint rule, the DHS, through the Coast Guard and TSA, 
formally proposes to require that all U.S. merchant mariners and all 
persons who need unescorted access to secure areas of a regulated 
facility or vessel must obtain a TWIC.
    In order to obtain a TWIC, individuals will be required to undergo 
a security threat assessment conducted by TSA. TSA, in conducting those 
security threat assessments, will use the procedures and standards 
similar to those that apply to commercial motor vehicle drivers 
licensed to transport hazardous materials within the United States. It 
is anticipated that program implementation will begin at the end of 
2006.
    TSA has already tested the technology and the business process 
required to implement the TWIC. During the testing phase, which ended 
in June of 2005, more than 4,000 of these credentials were issued to 
transportation workers at 26 locations in six states. We have proven 
that this technology can work in the field.
    Scope. We expect these cards will eventually be issued to about 
750,000 workers who have unescorted access to secure areas of MTSA-
regulated maritime port facilities and vessels. TWIC cards will be 
required not only for port facility workers, but for anyone who seeks 
unescorted access to secure areas of a MTSA regulated facility or 
vessel, regardless of frequency, such as certain crew members, truck 
drivers, security guards, and rail employees, as well as all U.S. 
merchant mariners who hold an active U.S. Merchant Mariner's License 
(License), Merchant Mariner's Document (MMD), Certificate of Registry 
(COR), or STCW Endorsement. Future rules would be required to 
incorporate additional sectors (modes) of the transportation population 
such as air and rail.
    Security Threat Assessment. The security threat assessment for TWIC 
will include a review of criminal, immigration, and pertinent 
intelligence records to determine whether the individual poses a threat 
to transportation security. As previously noted, the TWIC process will 
mirror that of the Hazardous Materials Endorsement (HME) regulations 
and will integrate with them. TSA first issued regulations to implement 
security threat assessment standards for HME applicants--TSA's hazmat 
rules--in May 2003 and subsequently amended those regulations based on 
comments received from the states, employers and affected drivers.
    TSA's hazmat rules establish standards concerning criminal history, 
terrorist activity, mental capacity, and immigration status to 
determine whether a driver poses a security threat and is qualified to 
hold an HME. Drivers who have been convicted or found not guilty by 
reason of insanity for certain crimes in the preceding 7 years, or have 
been released from incarceration for those crimes in the preceding 5 
years, are deemed to pose a security threat and are not authorized to 
hold an HME. Drivers convicted of certain particularly heinous crimes, 
such as espionage, treason, terrorist-related offenses or severe 
transportation security incidents, are permanently banned from holding 
an HME. In addition, drivers who have been involuntarily committed to a 
mental institution or adjudicated as mentally incapacitated are 
considered to pose a security threat that warrants disqualification 
from holding an HME.
    Aliens are not prohibited from obtaining an HME. The hazmat rule 
permits individuals who are in the United States lawfully and are 
authorized under applicable immigration laws to work in the United 
States to hold an HME upon completion of a satisfactory TSA security 
threat assessment. As set forth in the hazmat rules, an applicant's 
immigration status is reviewed and TSA conducts a security check of 
international databases through Interpol or other appropriate means.
    Right of Appeal. TSA will establish a comprehensive TWIC redress 
process under which individuals will have the opportunity to appeal an 
adverse determination or apply for a waiver of the standards. TSA's 
current hazmat rules include appeal and waiver procedures to ensure 
that no driver is wrongfully determined to pose a threat, and to 
provide individuals who are disqualified from holding an HME the 
opportunity to show rehabilitation, where applicable. Similar 
procedures are proposed for TWIC.
    Technical Standard. The TWIC technical architecture does not 
conflict with HSPD-12 and FIPS-201 requirements and will provide an 
open standard that will ensure interoperability and real-time exchange 
for supply chain security cooperation between the Department and the 
private sector.
    Funding. Initial costs of implementing TWIC will be borne by the 
Department's budget as we bring the outside integrator on board and 
transition current DHS system to the contractor. After that initial, 
transition stage, all costs of the program will be borne by TWIC 
applicants. TSA will take into account the fees paid by HME holders and 
merchant mariner applicants to ensure that duplicate threat assessments 
are not performed and duplicate fees are not collected. Nevertheless, 
there will be some additional fees associated with the cost of actually 
issuing and activating a TWIC to this subset of applicants that they 
will have to bear.
    Rulemaking Outreach. We know it is of vital importance to reach out 
to stakeholders and use their input to shape this program and 
rulemaking. Informal discussions have taken place already as we 
completed the TWIC pilot phase. Going forward, TSA and the Coast Guard 
will hold public meetings over the next few months in Newark, NJ; 
Tampa, FL; St. Louis, MO; and Long Beach, CA. Interested individuals 
will be invited to attend, provide comments and ask questions about the 
proposed rule. TSA and Coast Guard will provide exact locations and 
other additional information about the meetings in another Notice to be 
published in the Federal Register.
    Integrator Procurement. The Department will conduct a full and open 
competition for one integrated solution for the TWIC implementation. 
TSA intends to issue a new solicitation for TWIC enrollment services 
and the operations of the integrated data management system, including 
system maintenance. This will streamline the contracting and 
implementation process by identifying one party to fit all the pieces 
together into an effective, integrated security process. TSA has 
assessed alternative business models for TWIC implementation, and based 
on a full review of the total system time, risk, and cost of other 
options, has decided to go forward with a single integrator model.
    Timing. Under the current time-frame, it is anticipated that DHS 
will begin to issue TWIC cards to workers at the first group of ports 
before the end of this year. We will work with the enrollment vendor 
and our port industry partners to select appropriate enrollment 
locations to serve all U.S. ports. We will rate each location against a 
variety of factors to assess criticality, population, and 
infrastructure to determine the best priority for enrollment, taking 
into account the cost and potential efficiency of conducting 
enrollments in several ports in the same region of the country at the 
same time.
    The steps we are taking will be yet another boost to the security 
of our port facilities and vessels. It's an effort which, when 
completed, will assure our citizens that those people who have 
unescorted access to secure areas of these port facilities and vessels 
have been screened to make sure that they are not a security threat.
    I appreciate the keen interest that this Committee has in an 
effective implementation of TWIC, and I thank you for your support. Mr. 
Chairman, this concludes my testimony and I'm pleased to answer any 
questions that you may have.

    The Chairman. That's very fair. Thank you very much for 
making it short.
    We have, already, a system in place for the Hazmat 
clearances through FBI, which the truckers pay for. Now, will 
this be a redundant fee they have to pay to get the TWIC 
screening process?
    Mr. Jackson. No. In fact, if you have a Hazmat certificate 
that has already allowed us to do the background investigation 
components, then you would be able to achieve a TWIC at a 
reduced rate.
    The Chairman. So, if the hazardous material handlers have 
that Hazmat certificate by the FBI, they will be all right.
    Mr. Jackson. They would still have to get a card, so they 
would pay a fee for the card and would go through the 
enrollment process, but the card would be less expensive to 
them, because we would not need to replicate those portions of 
the background work that have already been done in order to 
give them the Hazmat license. So, we're handing out a new 
identifier, which wasn't done with the Hazmat review.
    The Chairman. Are there any restrictions for the TWIC that 
will not be required for Hazmat?
    Mr. Jackson. On the criminal history background check, we 
have aligned in our NPRM the requirements for the hazardous 
material and the TWIC for maritime world. So, the same type of 
offenses that would exclude you from getting a hazardous 
materials certification would exclude you from the TWIC card. 
That is a subject of our Notice of Proposed Rulemaking, so 
we're soliciting comments from the industry about whether, and 
to what extent, those two should remain in perfect alignment. 
But we have gathered that data on the TWIC--I mean, on the 
hazardous material----
    The Chairman. Will the cards be valid for the same period 
of time?
    Mr. Jackson. Under the--the TWIC card is substituting for 
the hazardous material, with a new biometric card. And so, it's 
not a substitute for the hazardous material; it's a--that is, 
in essence, a--an addition to your commercial driver's license 
certification.
    The Chairman. So, the Hazmat endorsement does not require 
biometric clearance?
    Mr. Jackson. It does. But--fingerprints, yes, sir. So, for 
example, that would be another example of: if we've taken your 
fingerprints for Hazmat, we don't need to take them again for 
TWIC.
    The Chairman. We're going to a series of clearances that 
your Department is going to handle--Secured Flight, Registered 
Travel, TWIC--and you'll be running into things like Hazmat and 
other entities. Is there any chance to get them all together so 
that a person who's going to be in three different zones will 
be able to have just one card?
    Mr. Jackson. Yes, sir, and that's an excellent question. We 
are trying to find an architecture and, where possible, cards 
that will give us multiple uses. For example, we have the TWIC 
program, but we also have border-crossing cards: NEXUS, SENTRI, 
FAST. We have our Western Hemisphere Travel Initiative 
requirement for a card that would allow for border crossings. 
We have potential Registered Traveler Programs domestically and 
internationally. There are a multiplicity of biometrically-
enabled cards that are contemplated for the transportation and 
overall security world, which we hope to be able to bring 
together. I'll give you just one example of how we do that 
administratively as we're intending to create a common area for 
appeals, one common place so that we can have the most 
efficient and customer-friendly place to go to get problems 
cleared for these kind of cards if there's a concern, a 
question, or an issue about background clearance.
    The Chairman. Well, we've got a little problem at the floor 
right now with an immigration bill. A lot of the people here, 
are they going to be involved in immigration issues?
    Mr. Jackson. The idea is that we would use this same set of 
tools and capabilities. If, as the President has requested, the 
Congress approves a temporary worker program, it would require 
the same type of biometrically-enabled card, so the same 
essential data architecture that we are using for TWIC will be 
a precursor for how we could handle what would be a large 
inflow of background investigation and card issuance that would 
have to be associated with that program. Yes, sir, we are 
trying to align this multiplicity of unaligned programs and 
tools as best we can and as fast as we can.
    The Chairman. I think we know it's an enormous problem, but 
there have also been enormous delays. We started this in 2001, 
as I said in my opening statement. And now we're approaching 
midpoint in 2006. Are we on top of any of the problems that 
have caused the delays in the past?
    Mr. Jackson. I think we are, sir. The--I'm going to say two 
things. I want to just state up front that I share your 
frustration, and I may have kicked your frustration up a notch 
internally inside the Department. I think that we have taken 
too long to get this done. We're committing to you to make this 
a priority. We believe we have cut through issues necessary to 
get there. We have requested a little bit of flexibility 
recently from our appropriators to do some reprogramming 
necessary to make this work. But we're going to make this a 
priority. We share your sense that it's taken too long.
    I will say, in the defense column, this has been more 
complex, due to the proliferation of technologies and standard-
setting processes that are underway. We have tried to align 
this with the Federal Information Processing Standard, the so-
called FIPS-201. There's a government-wide smart-card standard-
setting process which will be completed this year, and which 
will drive this same type of technology for access to Federal 
facilities. And what we wanted to do is make sure that, as we 
created this massive TWIC deployment here, and then 
subsequently in other modes, that we were aligned with what the 
Federal Government was doing. We are similarly aligned with a 
Presidential Directive under HSPD-12, Homeland Security 
Presidential Directive 12, that sets requirements for biometric 
and technology standards associated with this world of 
activity.
    So, we are trying to get the whole Federal Government's 
programs that are doing similar things into a technical 
alignment. That took some not considerable--a considerable 
amount of work.
    Then we have tried to work with ports and the industry to 
make sure that we are not big-sticking them and not 
understanding their business operational needs in this--and 
requirements--for making this work well, so that we do not 
cause their businesses to implode. We are committed, on an 
ongoing basis, to continuing that dialogue. That has eaten up 
some time.
    I'm telling you that, despite those issues, we could have, 
and should have, moved faster. I will concede that to you. But 
we are moving at a forced march right now, and we're not going 
to let up.
    The Chairman. Well, then, last, let me ask you probably an 
unfair question. Did you explore the concept of having a 
private firm take on this whole thing and be an agency to 
produce the proof that is needed in all these areas, whether 
it's Hazmat or this TWIC or other areas like the traveler card 
would be?
    Mr. Jackson. The----
    The Chairman. It does seem to me that each agency is going 
to be going through this same process, and yet there ought to 
be some area out there where they have people who have the 
experience and know-how that could take on the job. It looks 
like the amount paid for the card would pay for that service. 
Am I wrong?
    Mr. Jackson. It is not an unfair question at all, and we 
have looked very closely at this. And I will tell you, it is 
around the nexus of the issues you just raised that we have 
made some fundamental changes under Secretary Chertoff's 
direction in how we will implement this program. We had, I'm 
going to say, earlier at the Department, a more government-
centric concept of operations of how this would work. In this 
model that we have published our regulations to implement, and 
which we will be soliciting outside industry support to help 
integrate, we have a better partnership that leverages the 
capabilities.
    And I might just take 1 minute to walk through what this 
looks like. We have to go around to 300-plus ports and find 
locations to set up intake systems. We have to find space. We 
have to go in and enroll individuals. And, for this purpose, we 
will have an outsourced contract. We'll be in a partnership to 
make sure that the firm finds real estate, sets this up. It's--
--
    The Chairman. Why don't you just turn it over to a private 
firm to do it?
    Mr. Jackson. That's exactly what we're doing, sir. We're 
contracting that out.
    The Chairman. But you're saying, ``We've got to find these 
spaces.''
    Mr. Jackson. We don't. We're giving that to the private 
sector to do that job. So, then we'll work with them to take 
the data and manage it through the process of approval. Some of 
that is inherently governmental. Making the nexus between the 
FBI data, the criminal history record checks, there is an 
inherently governmental component to this operation. We're 
going to outsource a substantial amount of this work in close 
partnership that allows us to protect privacy, to manage the 
program, and to get the results.
    The Chairman. Thank you.
    Senator Inouye?
    Senator Inouye. Mr. Secretary, if I may, I'd like to 
follow-up on the questioning by the Chairman.
    Last evening, the President addressed the Nation on the 
immigration problem, and he set forth as one of his elements 
there that he will have a biometric-type identification system 
which is foolproof to counter the large amount of counterfeit 
cards that are being produced. And when I read your testimony, 
I thought, ``I think the President's got troubles here,'' 
because your agency awarded, to BearingPoint, this contract, 
and the pilot program contract was set forth to include 75,000 
workers at a cost of $12.3 million. However, it ended up with 
1,657 cards, costing $22.8 million. That's what we have 
received from your agency. This project was over-budget, under-
subscribed. But you seem to suggest that this was a very 
successful pilot program, even if only 1,657 cards were used. 
Can you tell us why?
    Mr. Jackson. We did issue a larger number than that. The 
number that I've been told is about 4,000, but it was intended, 
in Florida, in the Delaware River Basin area, and in the L.A./
Long Beach area, to be a more restricted pilot so that we could 
get an experience with the technology.
    We, unlike the deployment, where it will be a fee-based 
system--in other words, the people who get the cards pay the 
cost of the cards--this pilot was a totally government-funded 
exercise to help us understand the problems and complexities of 
doing this in the field. And it was also an exercise that 
required building the backroom technical operating platform to 
manage the distribution of those cards, to pass off the 
clearances to the multiple Federal agencies that would have to 
pass on the suitability of a candidate. So, we were building a 
backbone and a technical architecture to help manage the larger 
deployment. That was what the BearingPoint contract was, in 
part, intended to support.
    Senator Inouye. Was the budget doubled?
    Mr. Jackson. I'm sorry?
    Senator Inouye. Was the cost doubled?
    Mr. Jackson. The cost was--I believe that we have spent 
about--on--total on this to date, about $61 million through 
2005. We have about another, I believe, $4.6 million in the 
budget this year. So, as we move forward, this becomes a fee-
based driven system, and the deployment will be paid for based 
upon the charge associated with purchasing a TWIC card.
    Senator Inouye. Under this cost arrangement, what do you 
think it will cost to produce 2 million biometric 
identification cards for immigrant workers?
    Mr. Jackson. We have not done a cost estimate on the 
immigrant worker program, on the temporary worker program. I 
can give you a comparison in this area for port workers, and it 
will be a slightly different type of background investigation, 
and certainly a different distribution model in how we handle 
the distribution. But for the TWIC card, there is a preliminary 
estimate, as part of our regulatory process, that says about 
$139 for a TWIC card.
    Senator Inouye. Well, how does it compare with the pilot 
project?
    Mr. Jackson. The pilot project, we didn't charge 
individuals for the card. We covered the whole cost as a start-
up program in the Federal Government out of a Federal 
appropriation.
    Senator Inouye. That cost about $25 million for 4,000 
cards?
    Mr. Jackson. I can get the--I can get the numbers for you, 
sir, to be more specific.
    Senator Inouye. I'm concerned, because eventually this 
committee will have to come up with numbers that the people of 
the United States can understand.
    Mr. Jackson. As we roll-out--if we were to do the temporary 
worker program, which the Department strongly supports and the 
President strongly supports, we would have an economy of scale 
here that would allow us, we think, to drop the cost of the 
card production part of that equation down. There has been a 
variety of conversations about fees, fines, registration, 
others associated with the immigration bill's look at temporary 
workers that would be funneled into the fee issue, as well as 
the cost of production.
    Senator Inouye. The Chairman is from Alaska, and I'm from 
Hawaii. And so, the Merchant Mariner Document, MMD, is very 
important to us. Now you have your TWIC program, and the Coast 
Guard is involved in the Merchant Mariner Document. Right now, 
we need more seamen. Is there going to be a mix-up or some 
seamless process whereby we won't have to take 6 weeks or 8 
weeks to issue a card?
    Mr. Jackson. Yes, sir. We will make this a seamless 
integration. And this is part of what the aligned rulemaking of 
the Coast Guard and the TSA seeks to accomplish. Right now, 
there are several credentials--the Merchant Marine Document, 
the license, the Certificate of Registry, and the Standards 
Training Certification for Watchkeeping--everything has an 
acronym, the so-called STCW endorsement. These are credentials. 
And what the Coast Guard has proposed is one Maritime Mariner 
Document which would allow us to take the work that we've done 
to issue these certifications and issue an actual biometric 
identifier. And the TWIC is that identifier. So, the Coast 
Guard, right now, has, I'm going to say, a little bit more 
burdensome process. They have, I believe, 17 processing centers 
that mariners have to go to. What we would be able to do is 
allow mariners to go to a broader swath of intake facilities 
that will be operating on a permanent basis as TWIC continues 
and to complete their enrollment in an integrated fashion. This 
would give them unescorted access to port facilities, and it 
would allow the Coast Guard to add those certifications, 
qualifications, and standards proof that they need to that 
document.
    Senator Inouye. You've indicated that it is very difficult 
to have a name-based background check. And how much easier is 
fingerprint background checks?
    Mr. Jackson. What we're doing is, we're combining both name 
and fingerprint-based background checks. What we have done to 
begin to get a start on the ramping-up of security in ports is 
to work through a process of managing name-based record checks 
prior to the actual distribution of TWIC cards in ports around 
the country. This, we estimate, is--some 400,000 individuals 
would go through this process. We've got a notice on the table, 
and the industry is required, by early next month, to have the 
names back. We're already receiving names. We've done a pilot 
program of testing names for this. And what this allows us, 
basically, to do is check citizenship status and whether or not 
the individual is on the terrorist watch list or on a terrorist 
list that we're concerned about.
    So, that is a--I'm going to say, a--an early installment on 
trying to improve the security associated with individuals 
moving in and out of port facilities. And that's underway. And 
we expect that to be completed for that first population pool 
this summer.
    Senator Inouye. Well, I wish you the very best, sir.
    Mr. Jackson. Sir, it's a complex task, but we're committed 
to making it work, and we appreciate the support that you've 
given us to keep our feet to the fire.
    The Chairman. Senator Pryor?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    Let me, if I may, Secretary Jackson, follow up on what 
Senator Stevens, and Senator Inouye have been asking about, and 
that is, I'm a little confused, I guess, on why it looks like 
we're heading down the path of having both the TWIC program and 
also the HME, the Hazmat program. It seems that both have 
identical security assessment and disqualifying offenses. Why 
have both?
    Mr. Jackson. The hazard materials certificate requirement 
compels individuals who drive trucks with hazardous materials 
to go through this background review. But not all people who 
enter a port drive hazardous materials and, therefore, have 
that certification.
    Senator Pryor. But don't they have the identical factors 
that you look at for both?
    Mr. Jackson. We are substantially aligning these two. And, 
in fact, you're absolutely on point, sir, we are actually going 
to give a discount to people who have a current hazardous 
material certification so that we will not have to repeat the 
work that we've done to check their background, to check the 
watch list. The work that's been done for them will be 
retained, leveraged, and integrated to this program so that if 
you've been through that process, you have a lower cost. But, 
in this case, we're actually giving you a credential, rather 
than a certification for your driver's license, that you're--
that you have a hazardous material certification. So, you now 
have this card, biometrically-enabled, capturing your 
fingerprints, that would allow you to enter a port. It's also 
the case that many truckers who do access work in and out of 
ports on an unescorted basis will need these, in addition to 
truck drivers who have had the hazardous materials. So, we have 
some hazardous material drivers who never go in a port, they 
need this program of their own; others who are entering into 
the port terminal who don't drive Hazmat, will need the TWIC, 
as well.
    Senator Pryor. To me, it just seems duplicative to do it 
that way, because when you have a--you know, these truck 
drivers, they get certified on a lot of different things that 
they don't really use, and it seems to me it would be better to 
streamline and have one, but we can talk about that----
    Mr. Jackson. I think, sir, you're right. And the answer is, 
we're streamlining it into TWIC. TWIC is the card----
    Senator Pryor. All right. That's----
    Mr. Jackson.--and----
    Senator Pryor.--what I was asking.
    Mr. Jackson.--Hazmat was a precursor to having a fully 
functioning Transportation Worker Identification Card that can 
be multimodal in its nature.
    Senator Pryor. At one point, I think we were told that TSA 
wasn't keeping fingerprints. Now I think you're saying that 
they are keeping fingerprints. Is that right?
    Mr. Jackson. Yes, sir.
    Senator Pryor. And, here again, is this something that is 
used in both credentials, for the HME and the TWIC, right now?
    Mr. Jackson. At the intake part for both processes, we 
capture fingerprints.
    Senator Pryor. And so, I think what you said a few moments 
ago is, it makes sense that if you capture it once, you don't 
have to do it again.
    Mr. Jackson. Precisely.
    Senator Pryor. Right.
    Mr. Jackson. Yes, sir.
    Senator Pryor. OK. And what about--I know what we're 
focused on, obviously, U.S. drivers, U.S. ports, et cetera, 
transportation workers--what about--do we--are we doing 
anything internationally to look at what they're doing around 
the world to see if we're close to having the same standards?
    Mr. Jackson. We are talking--I was at a European Union 
meeting last week, and this topic came up as a topic of 
discussion for exchange. We, as a matter of fact, have a 
visiting official from the EU at DHS today to continue to look 
at some of our issues associated with the documentation 
requirements and security requirements for cross-border travel. 
So, we do talk a lot with other nations about their best 
practices.
    On this score, in particular, we will be very engaged with 
both Canada and Mexico about the prospect, for example, that a 
Canadian truck driver may wish to come and access a U.S. port. 
And so, we're very much open to having a TWIC card that could 
accommodate that reality, and we want to work our way through 
comparable security processes to make it work.
    Senator Pryor. All right. Let me ask one more question 
about the expense of this. And I do have some questions that 
I'll submit for the record, with the Chairman's permission.
    But let me ask about the expense of this. Right now, the 
trucking company--or maybe technically the driver--but the 
trucking company bears the cost of getting these 
certifications, et cetera. I have a concern that that may hurt 
the smaller trucking companies. It probably won't hurt the big 
guys, but it may hurt the smaller trucking companies. Just as a 
matter of policy, is it better to put the burden, the cost, on 
the trucking companies and drivers, or is it better for the 
government to pay for this? And the reason I say that, we're 
talking about general public safety, and--why are we having 
those people, who are hauling materials, picking up, dropping 
off materials--why are we having them pay for it? Why not the 
taxpayer, at large?
    Mr. Jackson. It's a cost of doing business, and we believe 
it's appropriately placed on the business community to do this. 
It's also been authorized by Congress for us to collect the 
fees. It would be a very large sum of money for us to set out 
as a government subsidy to pay for this. And we believe that 
this is a--an equitable way to get a security enhancement in 
the port environment, and the fastest way to get it done.
    Senator Pryor. That's fair enough.
    The Chairman. Just one last question. I'm not sure about 
the fee that you've proposed in this proposed rulemaking. Does 
the fee that you've indicated there cover the complete cost of 
enrollment, the threat assessment credential production and 
delivery? For instance, does it cover the cost of the card 
readers and the other things that each port will have to have?
    Mr. Jackson. No, sir, it does not cover the cost of the 
port-centric infrastructure. I will tell you that that will be 
a subject of a subsequent rulemaking, to walk through the 
technologies that would be needed to do fingerprint capture 
upon presentation of credentials at a gate or at a facility. 
So, we are working this in a two-step process. First we're 
going to get the cards issued. It'll be a biometric photo and 
have biometric capabilities. But we will not immediately, in a 
given port, impose a requirement that there be readers in every 
private terminal and at every gate to manage this. That will be 
a process that the Captain of the Port, with the Coast Guard's 
strong engagement here with the industry, will work through, a 
plan and a time-table, which will be done on a port-by-port 
basis, is the current thinking. And that will follow in the 
relatively near-term, after the issuance of cards at each of 
these facilities. So, it's a two-step process.
    The Chairman. Well, back in the days when it was proposed 
that every gun owner have identification in order to purchase 
ammunition, et cetera, we went through this process and 
determined, at the time, that the least expensive process would 
be to issue a card with a number on it, and that would be 
presented like a credit card to a dealer, and they'd just run 
it through the card reader, and the FBI system would respond 
with a photo, et cetera, of the person who had that card. Now, 
that whole idea was rejected, but that was one of the things we 
looked into.
    Why haven't we looked at the idea that everyone gets a 
card, and there's a central identification system that you 
access, just like a credit card?
    Mr. Jackson. Well, there's a combination of central and 
distributed systems in this TWIC model that is centralized in 
the approval and the continuous checking against updated 
terrorist watch lists. So, you get approved, it goes through a 
central switch. It's a governmental--inherently governmental 
function to look at some of these lists. You are issued a card. 
The sheer volume of in-and-out transactions would mitigate 
against having a real-time check each time you did this. So, 
what we do is, we take an authorize list of TWIC participants 
and download that to the facilities that need the access. It 
also allows us to be able to authorize, ultimately, access to 
multiple port facilities in multiple ports for a single TWIC 
card.
    So, it's a combination of centralized function and speed. 
The speed of actually being able to read one of these cards and 
move in and out is something on the order of a third of a 
second in our field tests. So, we need that high throughput, 
high volume. We're talking about roughly 750,000 TWIC cards in 
the maritime world that would go out and be used on a daily 
basis in a high volume.
    The Chairman. Thank you very much. Any further questions, 
gentlemen?
    [No response.]
    The Chairman. We very much appreciate your appearance here 
today and look forward to working with you on the overall 
problem.
    Mr. Jackson. My pleasure. Thank you, Mr. Chairman.
    The Chairman. Our next panel is Mr. George Cummings, the 
Director of Homeland Security at the Port of Los Angeles; Ms. 
Lisa Himber, Vice President of the Maritime Exchange for the 
Delaware River and Bay; and Mr. Larry Willis, General Counsel 
of Transportation Trades Department of AFL-CIO.
    [Pause.]
    The Chairman. Good morning. We thank you very much for 
coming. If it's agreeable, we'll just call on the witnesses in 
the order that I've introduced them.
    Mr. Cummings, I appreciate your being here and look forward 
to your testimony.
    All of your statements will be printed in the record in 
full. We'd appreciate it, if you could, to summarize them, to 
some extent. We will have another vote here on the floor of the 
Senate in 40 minutes.
    Thank you very much.

         STATEMENT OF GEORGE P. CUMMINGS, DIRECTOR OF 
  HOMELAND SECURITY, PORT OF LOS ANGELES, CITY OF LOS ANGELES 
                       HARBOR DEPARTMENT

    Mr. Cummings. Good morning, Mr. Chairman and members of the 
Committee, and thank you for inviting the Port of Los Angeles 
to testify before you today to share the port's perspective on 
the National Transportation Worker Identification Credential 
Program and to convey our experience in our participation in 
the test and prototype phases of the program.
    I'm George Cummings. I'm the Director of Homeland Security 
for the Port of Los Angeles, which is the Harbor Department of 
the City of Los Angeles.
    Port security is a top priority for the Port of Los 
Angeles. The port is not only responsible for the security and 
well-being of our tenants, workers, visitors, and the 
surrounding communities, we must also maintain the free flow of 
commerce that moves through our port and is vital to the 
Nation's economy.
    As you're aware, Mr. Chairman, more than 95 percent of the 
U.S. overseas trade moves through the Nation's seaports. The 
Port of Los Angeles, combined with the Port of Long Beach, 
handle more than 43 percent of the Nation's containerized 
commerce. In addition to containerized freight, these ports 
also handle millions of cruise and ferry passengers, 
automobiles, and we handle over 50 percent of California's oil.
    Following the tragic events of September 11, 2001, Congress 
enacted the Maritime Transportation Security Act. The U.S. 
Coast Guard rapidly developed regulations to establish security 
standards for port facilities. All 50 of the maritime 
facilities within the Los Angeles/Long Beach Port complex were 
in compliance with these regulations by the July 1, 2004, 
deadline.
    Full compliance with these new security standards achieved 
an important milestone; however, comprehensive credentialing 
programs, such as the TWIC program, are an essential part of 
security for our Nation's seaports and has not yet been fully 
realized.
    The Los Angeles/Long Beach Port complex, along with 
Delaware River and the State of Florida, participated in the 
two developmental phases of the TWIC program. Our experience 
during the phases of the--of this--development of this program 
taught us several lessons. We would like to share a few of 
these with you today.
    First, Mr. Chairman, the card-reader systems must be based 
on the best available technology and must use a biometric to--
the biometric capability to prevent unauthorized access to 
terminals.
    The issuance of the credential must be based on a 
background check that will effectively eliminate individuals 
that could pose a security risk.
    The program needs to include fair and accessible appeal and 
waiver processes available to individuals who are initially 
found ineligible for the card.
    The regulated facilities must maintain the authority to 
grant access only to those individuals that they determine 
require unescorted access to their individual facilities.
    The regulated facilities must be afforded flexibility on 
how they set up the systems on their individual terminals.
    Last, costs associated with the program must be reasonable, 
both costs to individuals that require a card, as well as costs 
associated with system installation and maintenance on the 
facilities.
    As you're aware, Mr. Chairman, the TWIC program has been in 
development for several years, and implementation of this 
program remains a critical element of security for our Nation's 
seaports. The Port of Los Angeles is encouraged with the recent 
Federal notice of proposed rulemaking regarding the TWIC 
program. We look forward to participating in an expedient 
regulatory development process.
    In closing, Mr. Chairman and members of the Committee, we 
thank you for your leadership in calling attention to the most 
critical parts of port security, and one that has not yet been 
fully accomplished. Thank you, again, for the opportunity to 
participate in this hearing. I look forward to any questions 
you may have.
    [The prepared statement of Mr. Cummings follows:]

    Prepared Statement of George P. Cummings, Director of Homeland 
  Security, Port of Los Angeles, City of Los Angeles Harbor Department
    Good morning, Mr. Chairman, and members of the Committee. Thank you 
for inviting the Port of Los Angeles to testify before you today to 
share the port's perspective on the national Transportation Worker 
Identification Credential (TWIC) program, and to convey our experience 
as a participating Port during the test and prototype phases of the 
TWIC program.
    I'm George Cummings, Director of Homeland Security, for the Port of 
Los Angeles. I'm responsible for coordination of the Port's homeland 
security and maritime security programs at the national, state, and 
local levels.
    Port security is the top priority for the Port of Los Angeles. The 
Port is not only responsible for the security and well-being of our 
tenants, workers, visitors, and the surrounding communities; but we 
must also maintain the free flow of commerce through our Port which is 
so vital to this Nation's economy.
The Importance of Maritime Trade and Ports
    As you are aware, Mr. Chairman, more than 95 percent of U.S. 
overseas trade moves through our seaports. As a premiere port of entry 
for cargo on the West Coast, the Port of Los Angeles occupies 7,500 
acres of land and water along 43 miles of waterfront. Together with our 
San Pedro Bay neighbor, the Port of Long Beach, we handle more than 43 
percent of the Nation's containerized commerce. That translates to 7.5 
million twenty-foot equivalent units of containers that entered the 
Port of Los Angeles in 2005. With the Port of Long Beach, a total of 
14.3 million twenty-foot equivalent units of containers entered the San 
Pedro Bay Port complex. Together, we rank the fifth busiest port 
complex in the world. Alone, the Port of Los Angeles is the eighth 
largest container port in the world, and number one in the United 
States. In addition to containerized freight, the Los Angeles/Long 
Beach Port complex handles over one million cruise passengers, half a 
million autos, and over 50 percent of California's oil.
    Trade through the Port of Los Angeles has grown steadily by an 
estimated 20 percent each year over the last 5 years, and we expect 
this trend to continue. Likewise, the industry expects national 
maritime trade volumes to double by the year 2020, although some 
economists have predicted that such doubling may occur as early as 2014 
due to the demands of the American marketplace.
    In the event of an unforeseeable incident, whether caused by 
intentional acts or natural disaster, it is the Port's responsibility 
to resume cargo operations as quickly as possible in order to minimize 
any impact to the Nation's economy that is dependant on trade and the 
movement of goods.
    A recent example of the effects of a major port shutdown occurred 
in the Fall of 2002 when a labor disruption caused a 10-day shutdown of 
the West Coast ports that brought cargo movement to an immediate halt. 
This action cost the Nation's economy an estimated $1.5 billion a day 
(valued in 2002 dollars), disrupting the availability of goods and 
products that Americans rely upon daily. A healthy U.S. economy relies 
heavily on secure, functioning ports throughout the United States.
Maritime Transportation Security Act Regulations
    Following the tragic events of September 11, 2001, Congress enacted 
the Maritime Transportation Security Act (MTSA) of 2002. Section 102 
requires background checks and the issuance of biometric transportation 
security cards for all maritime personnel who need access to secured 
areas of ships and port facilities. As such, the U.S. Coast Guard 
rapidly developed regulations to establish security standards for port 
facilities. The MTSA regulations required terminal operators to submit 
their facility security plans by December 31, 2003, and the deadline 
for implementation was July 1, 2004. All 50 of the maritime facilities 
within the Los Angeles/Long Beach Port complex--cargo terminals, liquid 
bulk and dry bulk terminals, and the World Cruise Center were in 
compliance by the July 1, 2004, deadline. Full compliance with the new 
security standards achieved an important milestone; however, complete 
implementation of the TWIC program is essential for the security of the 
Nation's seaports.
The Importance of Access Control and Credentialing
    Access control at ports and port facilities is a critical component 
of port security, and access control will require a comprehensive 
credentialing program. The Los Angeles/Long Beach Port complex, along 
with the Delaware River and the State of Florida, participated in the 
two developmental phases of the TWIC program. We consider a Federal 
credentialing program, such as TWIC, to be the solution to this major 
security challenge. We fully support the TWIC program and look forward 
to its full implementation. Ports throughout the Nation are waiting for 
the TWIC program guidance before they can fully complete their access 
control systems.
Critical Elements of the TWIC Program
    The Port's experience during the TWIC test and prototype phases 
showed us several critical elements of the program that we believe must 
be addressed in the fully implemented program. The Port recommends that 
the following elements be incorporated into the TWIC program:

        1. The card and reader systems must be based on the best 
        available technology using biometrics to prevent unauthorized 
        access;

        2. The issuance of a credential must be based on a background 
        check that will effectively eliminate individuals that would 
        pose a security risk;

        3. The program needs to include a fair and accessible appeal 
        and waiver process for individuals who are initially found 
        ineligible for a TWIC card;

        4. The regulated facilities must maintain the authority to 
        grant access only to those TWIC holders that require access to 
        that facility;

        5. The regulated facilities must be provided with an electronic 
        connection to the Federal agency operating the national 
        database to readily verify the validity of TWIC cards presented 
        at their facilities;

        6. The regulated facilities must be afforded flexibility on how 
        to set up the TWIC access control systems for their facilities; 
        and

        7. Costs associated with the program must be reasonable, 
        including costs to the individuals who require TWIC cards, as 
        well as costs associated with card reader system installation 
        and maintenance.

The Need for Expediency
    As you are aware, Mr. Chairman, the TWIC program has been in 
development for several years, and implementation of a robust 
credentialing program at maritime facilities remains critical to 
securing our Nation's ports. The recent Federal Notice of Proposed 
Rulemaking encourages the Port of Los Angeles that there will be an 
expeditious regulation and implementation process for TWIC, and we look 
forward to participating in that process.
Closing
    In closing, we thank you for your leadership in calling attention 
to one of the most critical elements of port security, and one that has 
not yet been fully accomplished--the TWIC program. Also, we appreciate 
the opportunity to share the Port of Los Angeles's experience with the 
TWIC test and prototype phases. The Port is confident that the Federal 
regulatory development process will occur as quickly as possible 
leading to the full implementation of the TWIC program. Thank you again 
for the opportunity to participate in this important hearing, and I 
look forward to answering any questions you may have.

    The Chairman. Thank you very much, Mr. Cummings.
    Ms. Himber?

     STATEMENT OF LISA B. HIMBER, VICE PRESIDENT, MARITIME 
           EXCHANGE FOR THE DELAWARE RIVER AND BAY; 
        VICE-CHAIR, NATIONAL MARITIME SECURITY ADVISORY 
                       COMMITTEE (NMSAC)

    Ms. Himber. Good morning, Mr. Chairman and members of the 
Committee. My name is Lisa Himber, and I am Vice President of 
the Maritime Exchange for the Delaware River and Bay. I also 
serve as Vice-Chair of the National Maritime Security Advisory 
Committee.
    Today I was specifically asked to talk about any delays 
that I think might have prevented TSA from launching this 
program. But before I get into that, let me start by saying 
that despite the ongoing delays, we continue to strongly 
support the TWIC program.
    By way of background, the Maritime Exchange was asked to be 
TSA's partner on the East Coast pilot project, given the work 
that we had previously accomplished in integrating what we were 
calling a Regional Delaware River ID System into our existing 
Maritime Online Ship, Cargo, and Crew Manifesting System.
    In the planning phase of the TWIC pilot program, we found 
TSA was very effective. They visited a variety of port 
stakeholders and were, thus, able to understand a full range of 
security needs. And, most importantly, TSA communicated openly 
and frequently with maritime stakeholders during this process.
    From the initial planning effort, TSA developed what we 
thought would be an effective blueprint to move the project 
forward in May of 2003. At that time, the expectation remained 
that the Technology Evaluation and Prototype phases would 
follow directly, and the pilot program would be completed by 
December of 2003.
    The Technology Evaluation phase ended in October of 2003 
only slightly behind schedule. However, for reasons that were 
never made entirely clear to us, the Prototype phase of the 
East Coast program did not kick off until November of 2004. 
Among the reasons we heard included the fact that the 
Technology Evaluation report took longer to review than 
expected; thus, delaying the issuance of the request for 
proposals and contract award for the Prototype phase. There 
also appeared to have been a lengthy delay in the Fall of 2004 
associated with a contract modification.
    The Maritime Exchange office was the first East Coast site 
installed, which launched on November 17, 2004. Unfortunately, 
the enrollment at our site did not go as well as expected. Card 
issuance was delayed, for a variety of reasons. Data was not 
correctly entered into the system, data was missing, the system 
lost communication with the central server, et cetera. Whether 
these were purely technical issues or less--lack of trusted 
agent training, at this point, we don't know.
    Though the pilot program was scheduled to end on June 30, 
2005, card production did not begin in earnest until the summer 
of that year. Some of the technical setbacks that we understand 
included problems with the employees' sponsor worksheet, the 
TWIC web portal, and the lengthy delay associated with moving 
the card production facility in the middle of the program. 
Other concerns expressed were poor communications between the 
trusted agents and the pilot site locations. Because of the 
ongoing delays, we were pleased that TSA continued to support 
the East Coast locations well beyond the official program 
conclusion.
    In addition to the technical problems, we believe there 
were administrative and operational issues, as well. Foremost 
among these must be the high turnover at all levels within DHS, 
TSA, the TWIC program office, and the contractors. We also 
believe that the discussions which took place during this 
period about whether TSA should issue a standard or manage the 
program served to delay the process significantly.
    In December of 2005, the Maritime Exchange requested a copy 
of the prototype evaluation report, but this request was 
declined. Then, in February of this past year--of this year--
TSA informed the National Maritime Security Advisory Committee 
that the TWIC regulations had been completed and approved by 
Coast Guard and TSA, and were awaiting final approval.
    With the release of the draft notice of proposed rulemaking 
last week, many of the questions surrounding the implementation 
of TWIC had been answered. The deployment schedule, however, 
remains the most pressing question. Of equal concern is the 
ability of DHS to put together a team of individuals who will 
be able to lead the project through to its completion. And, 
also, it will only be upon formal publication of the rulemaking 
that we will be able to engage in the public debate surrounding 
the background check.
    There are other questions and concerns, and some of these 
are listed in my written statement.
    In closing, let me say that all the preceding 
notwithstanding, we believe TSA has assembled the basic 
building blocks of a program which will meet the need to 
validate individuals seeking access to secure maritime 
facilities, and we look forward to continuing to work with DHS 
to ensure that TWIC will be deployed in the safest, most 
secure, and efficient manner possible.
    This concludes my remarks, and I thank you for the----
    The Chairman. Thank you----
    Ms. Himber.--opportunity to speak.
    The Chairman.--Ms. Himber.
    [The prepared statement of Ms. Himber follows:]

Prepared Statement of Lisa B. Himber, Vice President, Maritime Exchange 
for the Delaware River and Bay; Vice-Chair, National Maritime Security 
                       Advisory Committee (NMSAC)
    Good morning, Mr. Chairman and members of the Committee, and thank 
you for the opportunity to present testimony today. My name is Lisa 
Himber, and I am Vice President of the Maritime Exchange for the 
Delaware River and Bay. The Maritime Exchange is a nonprofit trade 
association representing the members of the commercial maritime 
industry in Southern New Jersey, Southeastern Pennsylvania, and 
Delaware. Our mission is to promote the safety, security, economic 
viability and environmental health of the Delaware River Port complex. 
Included among our 300 members are those companies and individuals on 
the front lines of the international border of the port--such as port 
authorities and private terminal operators, tug and barge companies, 
labor organizations, vessel operators and steamship agents, just to 
name a few.
    In addition, I serve as Vice-Chair of the National Maritime 
Security Advisory Committee (NMSAC), which as you as you are aware was 
established under the Maritime Transportation Security Act (MTSA) of 
2002. I, and my fellow NMSAC members, are charged to provide advice to 
the Secretary of the Department of Homeland Security on matters such as 
national security strategy and policy, actions required to meet current 
and future security threats, international cooperation on security 
issues, and security concerns of the maritime transportation industry.
    I appreciate this opportunity to discuss the state of the 
Transportation Worker Identification Credential (TWIC) program, issues 
which may have prevented TSA from launching this program from a pilot 
participant perspective, and its future implementation. The TWIC 
program has been one of the priority Federal projects for my 
organization and its members in the Delaware River maritime community 
since even before its official inception.
Background
    The Exchange role in the port--Like most trade associations, the 
Maritime Exchange is an advocate on issues of concern to its members. 
However, what sets the Exchange apart is its day-to-day operating role 
in the port. The Maritime Exchange operates on a 24/7 basis and one of 
its key responsibilities is to collect, store and disseminate schedule 
information on all commercial cargo ships arriving or departing the 
Delaware River. We also serve as a communication and information hub 
for the tri-state port, distributing messages between ships and their 
shoreside service providers as well as distributing Federal safety, 
security, operational, and procedural bulletins to the maritime 
businesses operating throughout the region.
    In addition to our traditional Ship Reporting function, which dates 
back to 1875, in the mid-1980s the Exchange began the development of 
what is now known as Maritime On-Line (MOL). This system is a 
community-based information network which provides a mechanism not only 
to obtain anticipated, current and historical vessel movement 
information but also offers a tool for steamship carriers and their 
agents to submit cargo manifest data to U.S. Customs and Border 
Protection and advance electronic notice of vessel arrival and 
departure information to the U.S. Coast Guard. Through MOL, the 
Exchange provides Delaware River port operators with a cost-effective 
means to both comply with Federal information reporting requirements as 
well as to share information, such as manifest data or cargo release 
status, with local partners in the transportation chain through a 
central community maritime database system.
    Development of a regional standard ID--As Maritime On-Line had 
become a useful tool for doing business at regional ports, and because 
the Exchange had demonstrated its ability to bring together the various 
partners in the maritime industry to develop, implement, and use a 
community information system, several Exchange members approached us in 
the late 1990s to discuss the feasibility of developing a system under 
Maritime On-Line which could be used to identify truck drivers 
accessing the various cargo facilities in the three states.
    The Exchange organized a working group of system users--terminal 
operators, truck drivers, brokers and freight forwarders, steamship 
agents--and identified the requirements of what would be known as the 
Electronic Driver Identification (EDID) System. By September of 2001, 
the system design was complete, and the Exchange was working to 
identify a means of funding the initial program development. The 
premise behind this system was a centralized database and the issuance 
of an ID card that would be accepted at all participating Delaware 
River maritime terminals.
    Immediately after the events of September 11, 2001, Exchange 
members asked whether the system we had designed to identify truck 
drivers could be expanded to include anyone requiring access to 
maritime facilities. Like truck drivers in the State of Florida, those 
doing business in the Delaware River were required to obtain multiple 
identification cards, and the maritime community agreed that 
development of a single, standard ID card would be a critical program 
under new heightened security programs at maritime facilities.
    As a result, by October of 2001, the Exchange had identified 
funding to develop a pilot program, and in partnership with the Port of 
Wilmington, Delaware, had successfully programmed and tested what would 
become the Delaware River ID (DRID) system by January of 2002. We 
subsequently received a Port Security grant to continue this program.
    It was because of this effort that the agency which would become 
the Transportation Security Administration (TSA) selected the Delaware 
River as one of the TWIC pilot program locations. Among the rationale 
behind this selection was the fact that if such a system could work 
effectively at Delaware River ports, with three states and multiple 
private and public port facilities, it would work at all U.S. ports.
TWIC Pilot Program
    Having been involved in the TWIC program even prior to the 
establishment of the TSA and the August 2002 launch of the East Coast 
TWIC pilot project, my organization and its members have been keenly 
interested in the successful deployment of this program.
    The importance of TWIC to the maritime industry is underscored by 
the fact that the full NMSAC membership--which includes a diverse 
cross-section of maritime stakeholders--unanimously concluded that TWIC 
is among the most important components of the national maritime 
security effort. As a result members elected to make TWIC the number 
one priority on the NMSAC agenda. Last May, the Committee presented DHS 
with a full set of recommendations for TWIC implementation. We are 
pleased to see from the draft Notice of Proposed Rulemaking that most 
of the NMSAC recommendations have been adopted.
    Despite the many problems with TWIC over the last several years, we 
continue to support the idea of a standardized credential to be used at 
U.S. seaports. In the first phase of the TWIC program, the Planning 
Phase, TSA did everything right. They visited with a variety of 
operators at differing types of ports and were thus able to understand 
the full range of security needs. And they talked with the people who 
require access to multiple facilities--including pilots and other 
mariners, steamship operators, trucking companies, vendors and labor--
and they met with other local Federal, state and municipal agencies to 
better understand their needs and concerns. And most importantly, TSA 
communicated openly and frequently with maritime stakeholders during 
this process. During the Planning Phase of the program, TWIC program 
staff kept us apprised not only of their progress, but when there were 
setbacks, TSA explained the reasons and provided stakeholders with the 
opportunity to provide input into the program development process and 
assistance in overcoming obstacles.
    From that effort, TSA developed what we thought would be an 
effective plan to move the project forward. That was in May of 2003. At 
that time, the expectation remained that phases two and three of the 
program, the Technology Evaluation and Prototype phases, would follow 
immediately, and the pilot program would be completed by December of 
2003.
    The Technology Evaluation phase ended in October of 2003, slightly 
behind schedule, and for the most part, we believe it achieved its 
goals; that is, TSA could issue cards which could be read by scanners 
at various facilities. At the end of the evaluation TSA determined that 
the TWIC would need to utilize a variety of technologies--such as smart 
chip, magnetic stripe and bar code--in order to meet its key mandates: 
TWIC must be able to integrate seamlessly with facilities' legacy 
systems to minimize costs and facilitate rapid program deployment; and 
it must be interoperable among all private and public port facilities.
    During the Prototype Phase, TSA and stakeholders were to test the 
implementation of the technologies identified in phase two, as well as 
the host of business processes associated with implementing the TWIC 
program. These included trusted agent training, card application, 
threat assessment, card production and issuance, revocation, hot-
listing, replacement, use of a biometric, and the electronic 
communications between terminal facilities and the central database. 
For reasons which were never made entirely clear to pilot program 
participants, the Prototype Phase of the East Coast pilot program did 
not officially begin until November of 2004. We know that the Request 
for Proposals was not released until May of 2004, and the contract was 
not awarded until October of that year. Some of the reasons cited for 
the delay included the fact that the Technology Evaluation report took 
longer to review than expected, thus delaying the development and 
release of the Request for Proposals. There appeared to have been a 
lengthy delay in the Fall of 2004 resulting from a subsequent 
modification to the contract once it had been awarded. Finally, the 
fact that the contractor selected for phase three was not the same as 
that used for phase two undoubtedly contributed to the delay.
    The Maritime Exchange office was the first East Coast site 
installed for the third phase test. By November 17, 2004, we had pre-
enrolled our ten employees, TSA had installed the biometric readers and 
cameras. Unfortunately, the enrollment at our site did not go as well 
as expected. Several members of our staff were required to return 
multiple times to obtain their cards for a variety of reasons--data was 
not correctly entered into the system, data was missing, the trusted 
agent lost connection to the central server, the system would not save 
data after it had been entered, etc. Whether these were purely 
technical problems or lack of sufficient trusted agent training is 
unknown.
    Though we were certainly surprised by the number of problems 
encountered, the Exchange was pleased to be the first site--better to 
work through the glitches at an office location rather than at a 
working maritime facility where moving people quickly through the gates 
is paramount.
    Similar delays in completing the enrollment site installations and 
beginning the processes to register applicants were reported by the 
other pilot participant sites.
    Although the pilot program was scheduled to terminate on June 30, 
2005, card production did not begin in earnest until well into the 
summer of that year. Some of the technical setbacks included problems 
with the employer sponsor spreadsheet (an Excel spreadsheet the 
employers were to complete and return to TSA to upload into the 
database in advance of enrollment), problems with the TWIC web portal, 
system shutdowns for undefined upgrades, and the lengthy delay 
associated with moving the card production facility from Pennsylvania 
to Kentucky in the middle of the program. At least one TWIC sponsor was 
notified that data for several employees was lost during this 
transition. He was subsequently informed that the data was never lost 
but rather it had been incorrectly entered. In either event, the 
individuals were required to re-enroll.
    Other concerns expressed during the pilot program were poor 
communications between the trusted agents and the pilot site locations 
(e.g., schedule of enrollment at the facilities, failure to notify 
sites of trusted agent employee turnover, no advance notice of 
installation work, etc.). The TSA and its contractors did not, for 
example, consult the Delaware River stakeholders in developing the TWIC 
web portal. As a result, when it was demonstrated at a stakeholder 
meeting on March of 2004, some key functionality was not included, such 
as the ability of a sponsor to delete an employee from its roles and 
request card deactivation.
    In some cases, cards were not produced until well after the June 30 
program termination. As a result, TSA continued to formally sustain the 
program at the three Delaware River maritime locations through October 
31, 2005. We were also pleased that TSA continued to support the 
Wilmington, Delaware site, albeit on a limited basis, through March 31, 
2006.
    In addition to the delays resulting from the technical problems, we 
believe there were administrative and operational issues as well. 
Foremost among these, of course, must be the high employee turnover at 
all levels--DHS, TSA, the TWIC program office staff, and the 
contractors. In addition to the multiple individuals who held the TSA 
Administrator post during this period, the TWIC Program Manager changed 
three times, and there were four project leads for the East Coast pilot 
program between August of 2002 the Fall of 2005. At each instance, the 
incoming individuals had to be brought up to speed on the program and 
its participants. Needless to say, there was no clear way to circumvent 
delays of this nature.
    We also believe that the discussion which took place during this 
period surrounding the question of whether TSA should issue a standard 
or guideline rather than manage the program served to delay the program 
significantly.
    That being said, in March of 2005, TSA informed the National 
Maritime Security Advisory Committee that its intentions were to 
publish a Notice of Proposed Rulemaking by September 2005. During the 
subsequent months, particularly when it became apparent that the 
regulation would not be forthcoming in the immediate future, the NMSAC 
continued to request a response to the recommendations submitted in May 
of 2005 and to seek an explanation for the ongoing delays.
    In December of 2005, my organization requested a copy of the 
Prototype Phase evaluation report; however this request was denied.
    The TSA and Coast Guard did respond to the NMSAC recommendations on 
February 23, 2006 via a teleconference, the members were not provided 
with any explanation for the delay. At that time, we were told the 
draft regulations had been completed and approved by TSA and the Coast 
Guard and were awaiting final approval from DHS and the Office of 
Management and Budget.
Moving Forward
    With the release of the draft Notice of Proposed Rulemaking on May 
10, 2006, and under the assumption that the formal Notice will not be 
altered substantially, many of the questions surrounding the 
implementation of the TWIC program have been answered. The program 
schedule, of course, remains the pressing question. When will the 
regulation be published in the Federal Register, and what is the 
implementation schedule at the port level?
    Of equal concern as we move to transition TWIC from a pilot program 
to full implementation is the ability of DHS to put together a team of 
individuals who will be able to lead the program through completion. 
Needless to say, while the high employee turnover in both the DHS 
leadership and within the TWIC program office itself caused significant 
delays during the pilot, the ability to keep the TWIC program moving 
along a predetermined time-table once implementation begins will be 
paramount to its ultimate success.
    There were very few surprises in the draft Notice. Most of what TSA 
had indicated to NMSAC and other stakeholders would be in the final 
rulemaking is in fact included. From our perspective, the draft rule 
raises few questions relating to the general program implementation. 
There are, however, questions and concerns about some of the details 
not included in the draft and how the answers to those questions will 
affect deployment. These include:
    There does not seem to be a provision for casual longshore labor. 
While we recognize that it is necessary to screen individuals who will 
require unescorted access to secure areas at maritime facilities, it is 
equally important that this program does not dramatically and adversely 
affect commerce.
    There has been significant debate during the last few years about 
the effect the criminal history background check would have on 
transportation workers. While a number of maritime interests agree that 
the standards for the TWIC should be consistent with those of the 
Hazardous Material Endorsement, a significant majority believe that 
security regimes at maritime facilities do not dictate such stringent 
requirements. It will only be upon publication of the Rulemaking that 
we will be in the position to publicly dialogue on this critical issue.
    Since foreign vessels and therefore crewmembers are exempt from the 
regulation, facilities are concerned about how they will grant access 
to visitors arriving by water.
    Under the draft, terminal/vessel operators are required to know who 
is on board at all times--and to store the information in a database 
for not less than 2 years--and also that Federal officials and state/
local law enforcement are not included in the TWIC requirement. It 
appears, therefore, that terminal facilities will be required to 
manually enter information pertaining to those visitors who are exempt 
from the TWIC requirement. This may not be practical.
    In the event of an incident at a facility, is the TWIC program to 
be deactivated at the affected site to allow access to first 
responders? Would we want the program deactivated at such a critical 
time? If not, how would we validate emergency personnel?
    Who will be eligible to serve as trusted agents? We believe 
contractors should not only undergo the same screening as applicants, 
but they should be held to even higher scrutiny, such as a financial 
background checks as well as criminal history. In addition, these 
agents should undergo general business and customer service training as 
well as TWIC-specific training.
    At both initial implementation and beyond, during the interval 
between application and response, will applicants be allowed continued 
unescorted access to facilities/vessels if the operators choose to 
grant such access?
    What is the alignment between TWIC and the recently announced Coast 
Guard screening program for port employees, long-term contractors and 
longshoremen?
    Other more technical concerns include implementation of those 
business processes which were never tested during the pilot program:

  <bullet> Communication with the central database. The central 
        database would allow facility operators to provide TSA with the 
        names of individuals to whom they grant access. With this 
        feature, if an individual's card were hot-listed, TSA could 
        proactively notify all facilities where the worker had been 
        granted access.

  <bullet> Hotlisting. Since no connection between a central database 
        and the individual facilities was established, the card 
        hotlisting process could not be tested.

  <bullet> Interoperability. One of the original components of the TWIC 
        vision included its ability to be used with legacy systems and 
        across modes. This test was not fully completed. Additionally, 
        because of the delays in implementing TWIC, many vessel and 
        facility operators have been compelled to implement their own 
        programs in order to comply with Coast Guard security 
        requirements and address internal needs. TSA needs to include a 
        mechanism to phase in the use of TWIC so as to avoid the 
        significant and redundant expenses associated with full 
        replacement of legacy systems. Similarly, it is necessary that 
        the final deployment schedule not only allow sufficient time 
        for facilities to purchase and install equipment, but also to 
        modify software to integrate the card reader technology with 
        their internal access control systems.

  <bullet> Web portal. The web portal was designed and tested using an 
        employer sponsor to input and maintain worker data. Under the 
        draft rule, employer sponsorship is not included and applicants 
        will be required to enter and query data individually. How will 
        TSA establish and validate individual accounts?

  <bullet> Use of Biometrics. The prototype did not test use of 
        biometrics with workers at port facilities. This is a 
        significant concern. Also, the draft rule calls for use of an 
        alternate biometric if an applicant is unable to provide the 
        primary biometric. What will this be, and will separate readers 
        be required?

    All of the above notwithstanding, we believe TSA has assembled the 
basic building blocks to launch a program which will meet the need to 
validate individuals seeking access to secure maritime facilities. And 
we appreciate that DHS listened to its stakeholders on such key issues 
as eliminating the employer sponsor requirement, managing the program 
versus issuing a standard, and aligning the program with other 
credentials such as the Merchant Mariner Documentation.
    Over the years, the maritime sector perhaps more than any other has 
recognized the need to implement new programs and practices in an 
effort enhance the security of our homeland. We have dramatically 
altered business processes and worked closely with DHS agencies to help 
them achieve their missions. As with many Federal programs, we want to 
continue to work with TSA on the TWIC program to ensure there are no 
unintended consequences, such as those which might arise if we are 
unable to credential casual labor, and that the TWIC will be deployed 
in the safest, most secure, and efficient manner possible.
    We believe that with additional program refinement, the TWIC will 
ultimately emerge as an invaluable tool to meet the dual goals of 
improved security and facilitation of commerce.
    Thank you for the opportunity to speak today. I will be happy to 
answer any questions you may have.

    The Chairman. Mr. Willis?

 STATEMENT OF LARRY I. WILLIS, GENERAL COUNSEL, TRANSPORTATION 
                   TRADES DEPARTMENT, AFL-CIO

    Mr. Willis. Thank you, Mr. Chairman.
    First I wanted to thank you, again, for the opportunity to 
testify this morning on the TWIC program, and specifically on 
its application to port, maritime, rail and related workers.
    At the outset, let me clearly state that no one wants to 
secure our Nation's ports and transportation system more than 
the workers on the front line. Our members are going to be the 
first affected if the transportation system is used in an 
attack--or is attacked itself--so we obviously have a vested 
interest, as we've articulated many times in front of this 
committee, to enhancing security.
    We also understand that a tamper-resistant TWIC-type card 
is part of that effort, and we support the stated goals of the 
program--to identify terrorist security risks and to bar them 
from having unescorted access to our Nation's ports and other 
transportation systems. There's no disagreement about that.
    But, at the same time, the TWIC program, if it's going to 
be a success, must strike the right balance. It must enhance 
security, but it also must protect the legitimate rights of 
front-line workers. It must include a robust waiver and appeals 
process. It must protect the privacy of the information, both 
submitted and generated by the card. It must not burden the 
individual worker with the cost of this program. And, again, it 
must focus on identifying genuine, true security risks, and not 
punish a worker twice for a bad decision made several years 
ago.
    On that point, let me specifically thank this committee for 
working so hard on the MTSA, and specifically Section 70105, 
which established the limits and parameters for the maritime 
security card. You were very clear there. You stated that for 
felonies only those crimes that cause an individual to be a 
terrorism security risk should bar that person from the 
industry. Unfortunately, while that was a good mandate, we 
think TSA, in issuing the NPRM for this program, for the 
maritime TWIC program, and, before that, for Hazmat, came up 
with a list of disqualifying offenses that remains too broad, 
vague, and, again, not targeted on terrorism security risks.
    Let me cite just a couple of examples. Under the TSA's 
rules, those that commit felonies involving fraud are terrorism 
security risks. Those that commit crimes of misrepresentation 
are terrorism security risks. Those crimes involving 
dishonesty, same thing. These are all bad things. People should 
be punished. There's no disagreement about that. But does that 
make an individual a terrorism security risk unworthy to work 
in a U.S. seaport or unworthy to haul Hazmat?
    Yes, TSA did include a waiver in this rule, as they were 
required to do by this committee. We think that waiver process 
is extremely important. But that cannot be used as an excuse to 
include an overly-broad list of crimes.
    As you've heard, they will have to check 750,000 workers 
under this program. This is going to be very complicated. Do we 
want the additional burden of having to do waivers for workers 
who never should have been included in the list in the first 
place?
    So, we would respectfully ask TSA, which we will in our 
formal comments, and we have been talking to your committee 
about this--about having TSA, again, take a look at that list 
of crimes and try to narrow it, try to make it more specific, 
and try to have it focused on, again, identifying those 
individuals who are really terrorism security risks.
    The waiver process which I referenced, again, is crucial. 
And for that to have real meaning, it has to have an 
administrative law judge. We've asked TSA several times for 
that and that has been denied. I want to thank the Committee 
for including an ALJ process in its pending Coast Guard bill. 
That's being held up, obviously, for unrelated reasons. Despite 
that, we hope and expect TSA will include an ALJ process in its 
final rule.
    We need a national standard with states or local 
jurisdictions. Having additional background checks that go 
beyond the list of crimes that's expansive enough in the TSA 
rule is very problematic. Having those states go forward 
without a waiver or privacy or an appeals right that's at the 
Federal level, again, is something that we need to work on. 
Congress spoke to that in the highway bill for Hazmat. We hope 
that's carried over to maritime.
    The cost of the program has been talked about. As it is 
included in this NPRM, the costs will be borne by the 
applicant. We feel that that is unfair. We think the Federal 
Government has a role to play here in paying for this. And 
given the fact that workers are going to have to apply for a 
TWIC, maybe have additional costs for an appeal or waiver, 
having to pay for the cost of the card is a burden. That's not 
proper.
    I see that my time is up, so I'll stop and be happy to 
answer any questions the Committee may have.
    [The prepared statement of Mr. Willis follows:]

        Prepared Statement of Larry I. Willis, General Counsel, 
               Transportation Trades Department, AFL-CIO
    On behalf of the Transportation Trades Department, AFL-CIO (TTD) I 
want to thank you for the opportunity to testify this morning on the 
Transportation Workers Identification Credential (TWIC) and 
specifically on its application to port, maritime and related workers. 
TTD consists of 31 member unions, including those that represent 
thousands of longshore, maritime, rail and other workers who work in 
and around port facilities and who will be directly affected by the 
NPRM recently issued by the Transportation Security Administration 
(TSA) and the Coast Guard. \1\ In addition, TTD directly participated 
in the regulatory proceeding that implemented the threat assessments 
and background checks for Hazmat truck drivers and continues to work 
with our aviation unions to address concerns that have been raised in 
that mode of transportation. And finally, we understand that TSA has an 
interest in eventually extending the TWIC program to other modes of 
transportation and thus our unions not directly covered by the NPRM 
have a vested interest in this issue. So again, thank for the 
opportunity to share our views and concerns.
---------------------------------------------------------------------------
    \1\ Attached is a complete list of TTD affiliated unions.
---------------------------------------------------------------------------
    At the outset, let me state clearly that no one wants to secure our 
Nation's ports and other transportation assets more than the men and 
women represented by our affiliated unions. Our members are on the 
front-lines and they will be the ones first affected in the event that 
a terrorist attack is carried out using or attacking our Nation's 
transportation system. We also understand that access control 
procedures, including the use of tamper-resistant identification cards, 
is part of this effort and we support initiatives to identify and bar 
individuals who pose a terrorism security risk from working in 
security-sensitive transportation jobs.
    With that said, any TWIC program must strike the right balance--it 
must enhance the security of our transportation system, but must also 
preserve the legitimate rights of workers and not unduly infringe on 
the free flow of commerce. In short, the TWIC program must provide 
workers with basic due process rights, including a meaningful appeal 
and waiver process, ensure that privacy rights are respected, not force 
workers to pay the costs of this mandate and focus on identifying true 
security risks and not unjustly punishing someone twice for a bad 
decision made years ago.
    On this point, I want to acknowledge the work of this committee in 
passing Section 70105 of the Maritime Transportation Security Act 
(MTSA) that establishes the requirements and limits for a maritime 
transportation security card. While not a perfect compromise, there are 
important protections and limitations included in this provision, and 
it is noteworthy that the Committee has tried to strengthen these 
protections since passage of the MTSA in 2002. With last week's NPRM, 
and the Coast Guard's earlier notice that it will check names against 
the terrorist watch list, the Department is in the beginning stages of 
implementing the TWIC maritime program required by Congress shortly 
after 9/11.
    We are still in the process of reviewing and analyzing this 
voluminous proposal, and we will submit a more comprehensive response 
to the TSA and the Coast Guard as requested in the notice. I would like 
to take the opportunity this morning to highlight some of our initial 
concerns and reactions to the proposal and to offer some suggestions 
for improvement.
    There is little doubt that TSA and the Coast Guard had a 
challenging task in drafting this NPRM and implementing the Hazmat 
program as required by the USA PATRIOT Act. We do appreciate the fact 
that in many regards the NPRM follows the mandates of Section 70105 and 
otherwise attempts to put forth a reasonable and workable program. 
Unfortunately, there are many areas, too many in our opinion, where TSA 
and the Coast Guard have fallen short in both fulfilling the mandates 
of Section 70105 and generally striking the right balance between 
security and fairness for workers. These two objectives are not 
inconsistent. To the contrary, a workable, reasonable and fair TWIC 
program will only enhance transportation security, and we see no reason 
why this proposed rule cannot be altered to better achieve this 
objective.
Disqualifying Offenses
    We remain concerned that that the list of felony offenses that will 
disqualify a worker from holding a maritime TWIC is too broad, vague 
and not adequately focused on eliminating true security risks. Section 
70105 is clear--for felony convictions, an individual may not be denied 
a security card unless the individual has been convicted within the 
past 7 years or released from incarceration in the last five, of a 
felony ``that the Secretary believes could cause the individual to be a 
terrorism security risk to the United States.'' We maintain that some 
of the broad descriptions of disqualifying offenses listed in Section 
49 CFR 1572.103 go beyond this mandate and this limitation.
    Again, in looking at criminal records, the Secretary may only deny 
a card to someone who could pose a terrorism security risk. By way of 
example, the NPRM says that all felonies involving dishonesty, fraud or 
misrepresentation make an individual at least an initial terrorism 
security risk. If a worker is convicted of a felony in writing bad 
checks, that would appear to qualify as a crime of ``dishonestly or 
fraud.'' While we understand why a financial institution may not want 
to hire that person, we simply do not understand how that makes the 
individual a terrorism security risk unqualified to work in a port. 
Simply put, there needs to be a clearer nexus between terrorism 
security and the crimes that will disqualify an individual from holding 
a maritime TWIC.
    The TSA and the Coast Guard note in the NPRM that they are adopting 
the disqualifying offenses currently in place for the Hazmat program. 
While we agree that the two programs should be as similar as possible, 
it must be remembered that the Hazmat program and the maritime TWIC 
program are governed by two different statutes. Specifically, Section 
1012 of the USA PATRIOT Act (codified at 49 U.S.C. 5308(a)) grants TSA 
broader discretion in deciding what crimes will disqualify someone from 
the industry and how far back the criminal record should be examined. 
Section 70105(c) places more limits on the Secretary for the maritime 
program--only those crimes that make someone a terrorism security risk 
to the United States should be included. In fact, during consideration 
of the Hazmat background check program, TTD specifically asked TSA to 
adopt a list of criminal offenses that in reality was consistent with 
the MTSA standard. While TSA claimed it was adopting such an approach, 
we continue to believe that the crimes adopted for the Hazmat program 
and proposed for a maritime TWIC do not in fact meet the standard 
established by Section 70105.
    In response to our calls to limit the list of disqualifying crimes, 
TSA has often stated that such refinements are unnecessary because a 
worker can always apply for waiver. While we appreciate the inclusion 
of a waiver process in Section 70105, and its adoption in the NPRM, it 
should not be used as excuse to adopt an overly broad list of felonies 
and allow other problems with the list of disqualifying crimes to go 
unaddressed.
    Deeming someone a terrorism security risk is not a characterization 
that should be casually rendered and places an obvious burden on a 
person to overcome that label. While TSA may be able to report that it 
is granting waivers in the Hazmat program, we do not know how many 
workers have chosen to not apply for a Hazmat endorsement in the first 
place because of the long list of disqualifying offenses. Furthermore, 
TSA will need to review and process the criminal histories of 
approximately 750,000 port and related workers pursuant to this NPRM on 
an extremely tight deadline. On top of the other procedural challenges 
inherent in this program, it makes little sense to overload the waiver 
process with individuals who should never have been disqualified in the 
first place.
    We are also disappointed that the proposed regulations do not 
provide for any mechanism for a person to challenge the determination 
that a particular crime is one described in Section 1572.103. There may 
be situations where a person is convicted of crime that TSA believes 
fits into the broad description of the disqualifying offenses, but a 
legitimate argument could be made to the contrary. To rectify this 
problem, we intend to ask TSA to allow workers to challenge the 
characterization of a particular offense either as part of the waiver 
or appeal process.
Waiver Process and ALJs
    As indicated earlier, we worked directly with Members of Congress 
in the negotiations that led to Section 70105 and the inclusion of a 
waiver process was a major priority for our member unions. We were 
therefore pleased that TSA chose to incorporate this waiver into the 
Hazmat program and it has been offered as part of the NPRM.
    However, we remain concerned that the waiver process, as envisioned 
in the NPRM, requires workers to apply back to the very same agency 
that determined the individual was a security risk in the first place. 
Given the high public anxiety over terrorist risks and the insular 
nature of this process, we are concerned that TSA might reject waivers 
that are otherwise meritorious.
    In an attempt to address this problem, we have asked TSA, on 
numerous occasions, to allow workers to have their waiver cases heard, 
at some point in the process, before an administrative law judge (AU) 
at a hearing on the record. This would allow employees to make their 
case in front of an impartial decisionmaker not bound by political 
pressures or subject to agency interference. In addition, ALJ decisions 
would establish case precedent that would better define what 
constitutes a security risk. This would bring a level of fairness and 
consistency to a system that is central both to employee rights and 
national security.
    Because TSA has rejected our calls for this basic protection, we 
have been forced to turn to Congress for redress on this point. 
Fortunately, this Committee has acted and an ALJ provision is included 
in the pending Coast Guard Reauthorization Conference Report (H.R. 
889). While we understand that the Conference Report is being held up 
for unrelated reasons, it is clear that there is wide and bipartisan 
support for the introduction of ALJs into the TWIC process, and I want 
to thank Chairman Stevens and Co-Chairman Inouye for your help on this 
issue.
    For reasons that are quite frankly puzzling, TSA and the Coast 
Guard have failed to include an ALJ in this NPRM and have simply stated 
they will alter the proposal if Congress changes the law. While we have 
every confidence that Congress will act, it is troubling that TSA and 
the Coast Guard are refusing to include ALJs on a technicality. These 
agencies clearly have the discretion to include ALJs in the process and 
their continued resistance to the program gives us some concern 
regarding how they will implement and incorporate ALJs into the TWIC 
process. I should note that for the ALJ process to be effective, cases 
must be heard and decided as expediously as possible so that employees 
are not unjustly barred from returning to work.
Application of Waivers to Subjective Decisions
    We are also concerned that the waiver process in the NPRM does not 
apply to security threat assessments made by TSA for subjective reasons 
under Section 1572.107. Under this Section, TSA can disqualify someone 
for criminal offenses that are not on the disqualifying list, if the 
TSA determines that other convictions are ``extensive,'' if the 
conviction is for a ``serious'' crime, or if the person was imprisoned 
for over 1 year. Putting aside our concerns with these broad and 
subjective criteria, we do not understand how TSA is implementing this 
without allowing workers to seek waivers as they do for crimes listed 
in Section 1572.103.
    More to the point, Section 70105(c)(2) of the MTSA specifically 
mandates that TSA afford a waiver for all reasons a worker may be 
disqualified from holding a transportation security card. We understand 
that TSA does not afford waivers under the Hazmat program for 
disqualifications for subjective decisions. While we objected to that 
decision in the Hazmat proceeding on policy grounds, the case here is 
different--for the maritime TWIC, a waiver is a statutory right and 
cannot be denied by TSA at is discretion. We hope and expect TSA to 
make this change as it finalizes its rule.
National Standard Needed
    We are concerned with language in the NPRM that would specifically 
allow states to impose additional and broader background checks and to 
do so without any of the protections or limitations included in the 
Federal program. If security threat assessments are needed to enhance 
our national security, the TSA should adopt and enforce a national 
standard. It makes little sense for TSA to establish a national 
program, force workers to pay for this program (over our objections), 
and then allow local jurisdictions to use national security as an 
excuse to create yet another security review process.
    There simply should not be a difference in what constitutes a 
security risk based on what state or jurisdiction a port resides in. 
Furthermore, TSA and the Coast Guard have a stated intent, both 
articulated in the NPRM and in other documents, to achieve a level of 
consistency governing threat assessments and transportation 
credentials. Allowing states to arbitrarily impose different security 
requirements is inconsistent with this objective and should be 
reversed. Failing that step, TSA must ensure that due process and 
privacy rights provided for at the Federal level apply to the states. 
We would note that Congress specifically mandated this for the Hazmat 
program in the SAFETEA-LU legislation and we would expect TSA to extend 
this to the maritime side. We will also seek clarification from TSA on 
how it intends to evaluate and enforce the requirement that states, 
with separate checks, comply with these statutory due process 
requirements.
Cost of the TWIC
    We are vehemently opposed to the provisions of the NPRM that passes 
one hundred percent of the costs of this program on to individual 
workers. The security threat assessments and the background checks 
mandated in this proposal are considered necessary to enhance the 
security of our Nation's ports and are part of the overall effort to 
fight terrorist elements. Given the reality of this national priority, 
the government, and not individual workers, must absorb the costs of 
this program.
    We understand that the DHS Appropriations Act (Pub. L. 108-90, 
Section 520) directs TSA to ``charge reasonable fees for providing 
credentialing and background investigations in the field of 
transportation.'' We would respectfully ask that Congress lift this 
appropriations rider and allow the Federal Government to fund this 
program in a reasonable manner. We would note that even with the rider 
in place, nothing requires the costs be absorbed by workers--it simply 
states that ``reasonable fees'' be charged. The TWIC card, and the 
accompanying background check, is essentially a condition of employment 
and will surely benefit our employers. The port and related facilities 
will be more secure and access control procedures will be in place 
through readers and biometric cards. If the Federal Government refuses 
to step in and fund this security mandate, employers must be required 
to fund a program that will directly benefit their operations. It 
should be remembered that employees will have to go through the time 
and effort to apply for this card and may incur additional expenses if 
an appeal and waiver are needed. It is neither fair nor reasonable to 
ask them to also pay for a security mandate that has broader benefits.
Transportation Security Incident
    Under Section 70105(c)(1)(A)(ii) of the MTSA, an individual will be 
denied a maritime TWIC if he has committed a felony, within the last 7 
years, that causes ``a severe transportation security incident.'' The 
MTSA further defines this term to include a security incident that 
results in a ``transportation service disruption'' or an ``economic 
disruption in a particular area.'' In both the Hazmat rule and in the 
maritime TWIC NPRM, TSA has made a ``transportation security incident'' 
a permanent disqualifying offense with no waiver opportunities. We have 
long been concerned with the broad definition of this offense and that 
it could be interpreted to include a wide range of activities that 
while disruptive to commerce or transportation, should not permanently 
disqualify a person from holding a TWIC. We are pleased that Congress, 
again in the SAFETEA-LU legislation, included a provision that attempts 
to limit the reach of this provision and TSA has modified its rules 
accordingly. Nonetheless, we remain concerned that the term could still 
be misused, and we will urge further clarifications as the process 
moves forward.
Privacy of Information
    As we have consistently stated, maintaining the privacy and 
confidentiality of the information collected and generated by the TWIC 
process is crucial. Toward this end and at our request, Section 
70105(e) includes a specific mandate that ``information obtained by the 
Attorney General or the Secretary under this section may not be made 
available to the public, including the individual's employer.'' 
Consistent with this requirement, information that is gathered from the 
use of the card, i.e., when the employee enters and leaves a port 
facility, must not be shared with the employer. The TWIC program was 
conceived and mandated by Congress to enhance the security of our 
Nation's seaports. For this effort to succeed, it must remain solely 
focused on that objective and not be used for any non-security reason. 
We will continue to work with TSA and the Coast Guard to ensure that 
this issue is addressed in the final rule.
Application of TWIC to Aviation
    As the Committee is well aware, Congress has mandated that workers 
in the aviation sector undergo separate threat assessments, including a 
review of criminal histories. I should note that aviation workers are 
still denied access to a waiver process, rights afforded to Hazmat and 
maritime employees, and this double-standard should be rectified. Even 
though these threat assessments are in place, electronic identity cards 
have yet to be issued by TSA. Given the unique nature of the aviation 
industry, and the mobility of its workforce, an electronic biometric 
identification card would allow these employees to move more 
efficiently through the system and at the same time enhance aviation 
security. I know the Air Line Pilots Association (ALPA) has a 
particular interest in pursuing this issue and has specifically offered 
its assistance to Secretary Chertoff in this regard. We hope that TSA 
will work with our aviation unions to implement an aviation TWIC card 
based on the checks that have already been completed on those employees 
and consistent with the protections and limitations previously 
articulated.
Customs Problem
    Before I close, I want to raise a specific problem for workers who 
must work in Customs-controlled areas. These workers are subject to 
separate background checks that give individual port directors great 
leeway in making these threat assessment decisions. In particular, a 
port director can use a felony conviction to disqualify someone even if 
that felony was committed well beyond the seven or 10 year look-back 
period that govern maritime or aviation respectively. In fact, there 
have been several situations where an airport worker, after passing an 
extensive background check required by the aviation statute, had his or 
her customs credentials pulled because of a felony conviction older 
than 10 years. This double-standard makes no sense and has no security-
based rationale. As TSA moves forward with efforts to avoid duplication 
of background checks, this problem and similar issues must be resolved.
Final Thoughts
    As stated in the outset, transportation labor has always supported 
policies that will enhance the security of the Nation's seaports and 
our entire transportation system. We understand and recognize that the 
TWIC program is part of the Federal response to terror, and we 
specifically support its stated purpose of preventing terrorist 
elements from infiltrating our transportation network. But for this 
program to be successful, the legitimate rights of workers must be 
preserved and those that pose no terrorist threat must not be denied 
their right to work in this industry. We look forward to working with 
this Committee, the TSA and the Coast Guard to meet this objective and 
to make improvement to this proposal.
    Thank you again for the opportunity to share the views of 
transportation workers.
                     Attachment--TTD Member Unions
    The following labor organizations are members of and represented by 
the TTD:

        Air Line Pilots Association (ALPA)

        Amalgamated Transit Union (ATU)

        American Federation of State, County and Municipal Employees 
        (AFSCME)

        American Federation of Teachers (AFT)

        Association of Flight Attendants--CWA (AFA-CWA)

        American Train Dispatchers Association (ATDA)

        Brotherhood of Railroad Signalmen (BRS)

        Communications Workers of America (CWA)

        International Association of Fire Fighters (IAFF)

        International Association of Machinists and Aerospace Workers 
        (IAM)

        International Brotherhood of Boilermakers, Blacksmiths, Forgers 
        and Helpers (IBB)

        International Brotherhood of Electrical Workers (IBEW)

        International Federation of Professional and Technical 
        Engineers (IFPTE)

        International Longshoremen's Association (ILA)

        International Longshore and Warehouse Union (ILWU)

        International Organization of Masters, Mates & Pilots, ILA 
        (MM&P)

        International Union of Operating Engineers (IUOE)

        Laborers' International Union of North America (LIUNA)

        Marine Engineers' Beneficial Association (MEBA)

        National Air Traffic Controllers Association (NATCA)

        National Association of Letter Carriers (NALC)

        National Conference of Firemen and Oilers, SEIU (NCFO, SEIU)

        National Federation of Public and Private Employees (NFOPAPE)

        Office and Professional Employees International Union (OPEIU)

        Professional Airways Systems Specialists (PASS)

        Sheet Metal Workers International Association (SMWIA)

        Transportation Communications International Union (TCU)

        Transport Workers Union of America (TWU)

        United Mine Workers of America (UMWA)

        United Steel, Paper and Forestry, Rubber, Manufacturing, 
        Energy,

        Allied Industrial and Service Workers International Union (USW)

        United Transportation Union (UTU)

    The Chairman. Well, thank you very much for that.
    Let me call on our Co-Chairman first this time.
    Senator Inouye?
    Senator Inouye. Mr. Willis, your position is that if the 
conference bill is adopted with the administrative law judges 
involvement, that would meet your requirement of due process?
    Mr. Willis. Yes. I think for the purposes of the waiver 
process, the administrative law judge is a critical component 
for due process, and that is a provision that, obviously, we 
have supported, and we think is a good provision. I will say, 
though, as I said in my opening statement, that part of due 
process is coming up with a list of disqualifying offenses that 
is not too broad and too vague. Simply because you have a good 
waiver process and a good ALJ process, it doesn't change the 
fact that you have to narrow those crimes. And I think it's 
also important to note that once you have an administrative law 
judge, those cases need to be heard quickly and efficiently, 
because you're going to be keeping that individual worker out 
of a job, I believe, under the TSA rule. So, that is an 
important component of the due process question.
    Senator Inouye. Are you, at this moment, discussing this 
matter with TSA?
    Mr. Willis. We have clearly raised the need for an ALJ 
provision, both in the context of the Hazmat proceeding and--
before the rule came out on this topic. Quite frankly, we were 
a little puzzled that they didn't just go ahead and include the 
ALJ in the NPRM, stating that if Congress were to change the 
law, then they'll do it in their final rule. Given that you're 
so close on that, and given that there is wide bipartisan 
support for an administrative law judge, we would have 
preferred to see TSA just do it. They clearly have the 
discretion to include it. So, that's something that we're going 
to continue to work on, both legislatively and in the 
regulatory proceeding.
    Senator Inouye. Thank you very much.
    Mr. Cummings, you noted in your testimony that the cost 
associated with the program must be not only reasonable for 
individuals, but also for facilities and vessels.
    Mr. Cummings. Yes, sir.
    Senator Inouye. Now, we have been advised that the total 
cost for the nationwide implementation of TWIC is going to cost 
between $1.1 billion to 1.9 billion. And the cost for facility 
owners will be estimated between $580 million and $1.2 billion. 
Do you think this is reasonable? Or how is this cost going to 
apply to the 50 facilities in your area, Los Angeles/Long 
Beach?
    Mr. Cummings. Yes, sir. In our port, both Los Angeles and 
Long Beach are landlord ports, so the individual terminals have 
to comply with these regulations, and that relationship is 
between them and the United States Coast Guard. So, as was 
published in the notice of proposed rulemaking, if it follows 
along those lines, these individual terminals will then have to 
fund the installation of the systems on their own terminals--
the card-reading systems--so that their terminals will be in 
compliance with the Coast Guard regulations.
    Senator Inouye. What will be the cost implication for your 
area for the 50 facilities?
    Mr. Cummings. On a--it's hard to say, exactly, Senator. On 
a--the way the notice of proposed rulemaking is set up, the 
requirement is for one individual reader to be installed to 
meet the requirements. I think our experience is that on many 
of our terminals, particularly the larger ones, they will 
require significantly more system installation than just a 
single reader. Estimates we've made, on a per-terminal basis, 
is more on the order of $200,000 or so. I think that's 
considerably higher than an estimate that's just based on a 
single reader. So, there will be discretion at--on the part of 
the terminals, in terms of how widely and what investment they 
make. And they'll make those decisions based on their 
operations and their need for expediency and flow, and also, 
again, to meet the Coast Guard regulations.
    So, we expect that it'll be more along the lines of more 
cost to the terminals than was estimated in the rulemaking, 
more on the order of $100,000 to $200,000 per terminal, at 
least the larger terminals, Senator.
    Senator Inouye. Do you that will be reasonable?
    Mr. Cummings. I think, for our terminals, they have--they 
have all demonstrated strong commitment. As I mentioned in my 
testimony, all of our terminals, as soon as the initial Coast 
Guard regulations came out, they were all very expedient in 
getting their plans done and submitted. They made the monetary 
investments that they needed to make on their terminals. I'm 
confident that all of our facilities will follow suit and make 
whatever investments they need to make to continue to comply 
with the full implementation of the program.
    Senator Inouye. In implementing your program, will these 
facilities have to be examined by you, and approved?
    Mr. Cummings. No, sir. The approval process will be by the 
United States Coast Guard. We will function as a port authority 
in our capacity. We'll function as a facilitation entity 
between the terminals and the Coast Guard. We'll do what we can 
to promote both the system installation process, as well as the 
credentialing process, for our--we consider our stakeholders 
our--you know, our longshore populations, the truckers, as well 
as the terminal employees, so we will--we'll work as--any way 
we can to accommodate and facilitate the process.
    Senator Inouye. You'll have to receive the approval of the 
Coast Guard.
    Mr. Cummings. The terminals--yes, the terminals will, in 
the end, require an approval of a plan--a plan amendment and 
then the actual installations to support the TWIC program.
    Senator Inouye. Ms. Himber, the same question. Do you have 
a lot of port facilities there?
    Ms. Himber. We have roughly 40 facilities along the three 
states on the Delaware River. And I have not had the 
opportunity, since the proposed draft regulation came out last 
weekend, to go through, with my members, how they feel that the 
costs will affect them, and whether or not they think it's 
reasonable.
    A few things that I did notice in the proposed rulemaking 
that were not included, in addition to only costing out 
potentially one reader site at each facility--which does not 
seem to be reasonable; it's quite likely that all of the 
facilities will require more than one--there was also no 
consideration taken to the software costs which might be 
required to integrate the TWIC readers with the facilities' 
internal access control software and system. So, whether or not 
the estimate that--it does strike me that the estimate that 
TSA's put together may be a little bit low.
    Senator Inouye. I thank you very much.
    Thank you.
    The Chairman. Thank you, my friend.
    First, let me say, Mr. Cummings, I appreciated the courtesy 
that your people showed me and my staff when we did visit the 
Los Angeles Port.
    Mr. Cummings. Thank you, Mr. Chairman.
    The Chairman. Having gone to high school in that area of 
the South Bay, I can tell you it's changed considerably since 
the last century.
    Mr. Cummings. Yes.
    [Laughter.]
    The Chairman. You seem to have an access problem that goes 
beyond just identification. I note there's only one railroad 
line going in and out. Have you covered the question of the 
contents of the containers that come and go into the port? Are 
you working on that security, also?
    Mr. Cummings. Yes, Mr. Chairman. We're working on a number 
of different ways on cargo security. We are participating in 
Operation Safe Commerce, which is entering its third phase, and 
that program, as you may know, is intended to identify and test 
leading-edge and effective and efficient cargo security 
measures that then can be implemented industry-wide. We 
continue to work on--with our terminals and with the U.S. 
Customs and Border Protection, both at the national level and 
within the port, to implement their programs, such as the 
Radiation Portal Monitor Program, which is the radiation 
detection screening at the out-gates of the terminals. And for 
our port, that is--that installation is nearly complete. I 
believe they're just about finished with those installations.
    The Chairman. When I was there, I felt there was a question 
as to whether the same identification should be required of 
people who drive these containers to the port as will be 
required for those people who work in the port. Are you going 
to have two sets of identifications?
    Mr. Cummings. No, Mr. Chairman. The way that the TWIC 
program is laid out, and the way we've understood it in--during 
our participation in its development is that it would just be 
this single credential that would apply to anyone who requires 
the unescorted access on the maritime terminal that's--as 
dictated in the regulations. So, to our way of thinking, that 
actually will work fine. The single definition and the single 
card would be suitable.
    The Chairman. Well, Mr. Willis, a person who is driving a 
truck that has got containers on it does not necessarily have a 
Hazmat identification, does he?
    Mr. Willis. That container may or may not include Hazmat. 
Regardless, they--if they're going to have regular access, they 
are still going to be, under this NPRM, required to have a 
TWIC, as are the rail workers that we represent.
    The Chairman. You're saying all the people who are involved 
in the trucks that come and go, and all the people involved in 
the trains, operating the trains and the cars that come and go 
into the port, they will have the TWIC. Is that the plan?
    Mr. Willis. If they need regular unescorted access to a 
secure area of a port, yes, they will need a TWIC, under this 
NPRM.
    The Chairman. Well, now, that brings me back to you, Mr. 
Cummings.
    Mr. Cummings. Yes.
    The Chairman. There is a secure area beyond which everybody 
has to have it. What percentage of the port is actually a 
secure area?
    Mr. Cummings. Mr. Chairman, in our port, as you're familiar 
with from your visit, it's the--the port complex overall is 
fairly broad, encompassing the two port authorities and the two 
cities. Within it are these 50 individual terminals. For our 
port, that's where the security begins. It's at the gate of 
each of those individual facilities. And, for the most part, 
they have deemed that the entry into their area restricted, 
because they consider everything within their gates their 
responsibility to maintain security over--the highlines, the 
cargo transition points, all the buildings and so forth. So, 
they are, for the large--for the vast majority, just 
maintaining the one single perimeter. So, that will be the 
point at which unescorted access within that area will require 
the TWIC card.
    The Chairman. So, you're not going to have a single entry 
into that big port, are you?
    Mr. Cummings. No, sir. We'll just maintain the current 
structure with the 50 individual terminals.
    The Chairman. But if a person has a card and wants to go to 
any one of those terminals, that same card will let them get 
into any terminal, right?
    Mr. Cummings. Only--according to the regulation, only if 
that individual facility has listed that person on their 
system. In other words, each of these 50 terminals will then 
have the authority to only grant this unescorted access to 
those TWIC cardholders. So, the first step, Mr. Chairman, would 
be to get a TWIC card. The second step would be to present 
yourself at a facility and convince them that you need 
unescorted access on their terminal. They will--they'll enter 
you into their system, their database, and you will then 
proceed.
    The Chairman. That means that every one of those terminals 
has to have a card reader?
    Mr. Cummings. Absolutely. Yes, sir. Multiple, probably, in 
most cases.
    The Chairman. You've got the same problem, Ms. Himber?
    Ms. Himber. Yes. Most of the facilities in the Delaware 
River have designated the entire perimeter as the--anything 
inside the external perimeter as a secure area.
    The Chairman. Well, as I recall getting into the Port of 
Los Angeles, it's going to be a redundant thing. You're going 
to have a couple of places where you have to be identified, 
right?
    Ms. Himber. Right. And you might have multiple truck lanes 
at the main gate, so each one of those lanes, potentially, 
would have to have a reader, plus a visitor lane.
    The Chairman. Mr. Willis, in terms of what your people are 
doing, as I understand it, you question the financial impact on 
the individual, right?
    Mr. Willis. That's correct.
    The Chairman. Who's going to be required to make sure the 
persons that are operating these vehicles have cards, the owner 
of the trucks or the individual member?
    Mr. Willis. Well, I think how it's going to work is that if 
you come up to a port, you're not going to be able to have 
unescorted access unless you have a TWIC. I think with the 
truck drivers, it's going to be a complicated issue, because 
many of these--most of these, I believe, are independent 
contractors. I think that with the folks that work regularly in 
the ports and those who work in the rail, obviously they have a 
consistent employer, so there's going to be some connection 
there, and some ability to communicate with those workers and 
make sure that they are applying for the TWIC in a timely 
manner, and some infrastructure there.
    The Chairman. Are there any other identifications that are 
required of your members that--to be involved in this activity?
    Mr. Willis. Well, I mean, clearly there are a whole set of 
documents, as you mentioned, that the mariners need and that 
the Coast Guard is trying to figure out how you merge those. 
And that's going to be something that we're very interested in.
    The Chairman. But they have to have their own driver's 
license, right?
    Mr. Willis. Our members, you mean? Or the mariners?
    The Chairman. Yes, your members.
    Mr. Willis. Well, for the truck drivers to get a CDL, 
obviously you need a driver's license. And for the port 
workers, the TWIC would be the main identification.
    The Chairman. Well, currently isn't there an identification 
card they have?
    Mr. Willis. Sure. For individual ports--I can't speak for 
all of them, but, some ports are going to have--may already 
have current identification cards.
    The Chairman. Do you have them, Mr. Cummings?
    Mr. Cummings. We do not have a port identification card, 
no, sir. The access to our terminals right now is based on a 
driver's license or, for our longshoremen, their union card.
    The Chairman. How about you, Ms. Himber?
    Ms. Himber. Some ports in the Delaware region have issued 
port site-specific cards, and others are using a driver's 
license.
    The Chairman. And who pays for them now?
    Ms. Himber. The individual facility.
    The Chairman. I've got some questions I'd like to submit to 
you, too. We've got to go to the floor to have a vote.
    I appreciate very much your help. We'd like to be able to 
work to find a way to reduce the cost of these cards. And maybe 
you're right, by the time we get the quantity-based concept, 
the cost will go down.
    Have any of you thought about the idea of having private 
companies do this? Have you, Ms. Himber?
    Ms. Himber. We've thought about it. In fact, we even talked 
about it, at one point during the course of the pilot program, 
about 2 years ago, and we met with TSA and other--from Florida 
all the way up to New York on the East Coast, and looked at 
other opportunities to do this. But, at that time, we were told 
by TSA that they were nearing completion of whatever the 
current phase was, so we discontinued those discussions in 
favor of the TWIC.
    Mr. Willis. I would only add that if you're going to have--
and clearly I think this is where TSA is going--if you're going 
to have a private contractor issue these cards and participate 
in this program, there are significant requirements, both in 
statute and regulation, as far as protecting the privacy of the 
worker, making sure that the information is only used for 
security purposes, and isn't disclosed to employers or the 
public, and that these cards have to be, you know, given out in 
a quick fashion and quick turnaround time, so that any private 
entity that does provide these services--you really have to 
look to make sure that they're prepared to do that and that 
there is a process where that can be assured.
    The Chairman. Well, that's true. But they're going to 
contract that out, anyway.
    Mr. Willis. Exactly. I think as they look at that----
    The Chairman. As a practical matter, it's going to be in 
some private sector. I just don't know why the whole thing 
wasn't looked at as being a private-sector objective--something 
that'll be nationwide, that it would bring the cost down 
considerably.
    Senator Inouye, do you have any further questions?
    Senator Inouye. No, thank you.
    The Chairman. We want to work with you to make sure this 
system works, our bill would set a drop-dead date. Do any of 
you disagree with that?
    Ms. Himber. No.
    Mr. Cummings. No, sir.
    The Chairman. Mr. Willis?
    Mr. Willis. No.
    The Chairman. Thank you very much. We appreciate your 
coming.
    [Whereupon, at 11:50 a.m., the hearing was adjourned.]
                            A P P E N D I X

    Prepared Statement of American Trucking Associations, Inc. (ATA)
    American Trucking Associations, Inc. (ATA) appreciates the 
opportunity to submit comments on the Transportation Worker 
Identification Credential (TWIC). ATA is a federation of motor 
carriers, state trucking associations, and national trucking 
conferences created to promote and protect the interests of the 
trucking industry. ATA's membership includes more than 2,000 trucking 
companies and industry suppliers of equipment and services. Directly 
and through its affiliated organizations, ATA encompasses over 34,000 
companies and every type and class of motor carrier operation. The 
trucking industry is the one mode of transportation that connects all 
other modes of the supply chain. ATA's motor carrier members are, on a 
daily basis, transporting containers in and out of our Nation's 
seaports, rail terminals, and airports. The screening of individuals 
involved in the transportation of goods is important to the trucking 
industry.
    Any discussion of the TWIC should start with the underlying concept 
of the TWIC and why it was deemed necessary. In January 2003, Admiral 
Loy, then the second most senior official at the Transportation 
Security Administration (TSA), summed it up best, stating:

        A fourth initiative also underway is development of a 
        Transportation Worker Identification Credential or TWIC . . . 
        The idea is to have these [transportation] employees undergo 
        only one standard criminal background investigation . . . I've 
        heard that there are some truck drivers currently carrying up 
        to 23 ID cards around their necks. I wouldn't want to pay that 
        chiropractor bill. Under the TWIC program drivers and other 
        transportation workers will only have one card to deal with 
        which would be acceptable across the United States.--Remarks of 
        Admiral James M. Loy, Under Secretary of Transportation for 
        Security, Transportation Security Administration, before the 
        Transportation Research Board 82nd Annual Meeting Chairman's 
        Luncheon, January 15, 2003.

    As the representatives of the trucking industry, ATA supported this 
concept of a single background assessment and the issuance of a single 
security credential. However, since Admiral Loy's speech in January 
2003, the trucking industry has witnessed the implementation of a 
background check process for individuals obtaining hazmat endorsements 
(HME), a different background check requirement for truckers going to 
secure areas of airports, and now the implementation of yet another 
background check process for truckers transporting cargo in and out of 
the seaports. To obtain these different credentials, applicants must 
appear at different enrollment facilities, adapt to different 
administrative procedures, and pay steep ``user fees'' for each process 
required. The chiropractor bill is not the only hefty bill the trucker 
is paying. The bad news is that TSA has not been faithful to its vision 
of the TWIC. The good news is that it is not too late to get it right.
    ATA urges this Committee and TSA to return the TWIC to its initial 
moorings. We believe the following principles will facilitate achieving 
the original, laudable goal: (1) the current multitude of federally-
mandated background checks should be consolidated into one check that 
evidences an individual's privileges, from a security standpoint, to 
access areas or goods in the transportation supply chain; (2) the TWIC 
should serve not only as the one background check but also the one 
credential for access from a security perspective--this means the 
states should not be allowed, without demonstrating some compelling 
need, to add additional security checks and/or credentials; and (3) the 
system should be designed so that costs are minimized and evenly spread 
over all users. Adhering to these principles, a system can be 
implemented which truly will enhance the security of our country, while 
minimizing the cost of discovering the few bad apples in the large 
barrel of patriotic individuals who make their livings on our Nation's 
highways.
    In developing the HME background check, TSA intended to harmonize 
the HME check with the check required under the Maritime Transportation 
Security Act of 2002 (MTSA), the law authorizing use of TWIC in the 
seaports. \1\ Under the HME check, a driver submits fingerprints and 
biographical information and is checked against multiple criminal 
history, intelligence, terrorist, and immigration databases. Under the 
proposed TWIC rule, an individual requiring unescorted access to secure 
areas of the seaport (e.g., a truck driver) would submit fingerprints 
and biographical information and be checked against the same databases. 
Furthermore, the disqualifying criteria for TWIC are the same as the 
criteria for HME. Although these portions seem to have been harmonized, 
they were not consolidated. An individual who has successfully cleared 
the HME background check still has to undergo a costly ``enrollment'' 
process for issuance of the TWIC (while the individual saves some money 
on the threat assessment portion, the cost is still expected to be 
$105). \2\ Conversely, ATA can think of no reason why an individual who 
cleared the TWIC background check should not be deemed to have met the 
HME background check. That individual should not have to undergo any 
additional process from a security perspective. \3\
---------------------------------------------------------------------------
    \1\ ``[T]he agency plans to harmonize, to the extent possible, all 
of the various background checks that are required by statute, and so 
elements of MTSA appear in this rule.'' 68 Fed. Reg. 23852, 23853 
(2003); ``TSA intends to maintain as much consistency as possible 
between the current hazmat driver and future maritime programs.'' 69 
Fed. Reg. 68720, 68726.
    \2\ The proposed rule provides for the costs to these individuals 
for enrollment to range from $95-$115; however, TSA has specified the 
$105 amount in several presentations, including a summary of highlights 
of the proposed rule.
    \3\ ATA agrees that the individual should still have to meet all 
the knowledge, skills and safety requirements for issuance of the HME.
---------------------------------------------------------------------------
    Other security programs that include background checks on truck 
drivers, such as the secure identification display area (SIDA) at the 
airports or the Department of Defense's clearance to haul arms, 
ammunition or explosives, have not been consolidated at all. The 
individual would have to undergo a separate check for each program. To 
the extent possible, ATA supports harmonizing these programs and the 
disqualifying criteria for these programs. ATA understands that some 
programs may have more stringent criteria than others, and thus a 
tiered level of clearance may be necessary. Nevertheless, this could 
still be established through one background check. TSA's proposed 
definition of a TWIC as a federally-issued biometric card issued to an 
individual who has successfully completed a security threat assessment 
suggests that one check for multiple programs should be sufficient.
    ATA continues to share Admiral Loy's concern for the well-being of 
truck drivers weighed down by a multiplicity of cards. The proposed 
TWIC rule, by allowing state authorities to impose additional 
requirements for access to the ports, is an invitation for each port 
authority to issue its own credential on top of the TWIC. The State of 
Florida is already doing so at its seaports. The regulations issued by 
the Coast Guard under MTSA properly claimed the need for national 
standards of security and claimed preemption. ATA supported this 
eminently sensible position. ATA is disappointed that TSA has not 
adopted a similar approach, as the need for national standards of 
security remains equally applicable.
    One rationale frequently proffered by states that require 
additional checks of their state criminal history databases is that 
their state databases are more comprehensive or fully populated. The 
failure of states to upload criminal history information to the FBI's 
national databases actually creates a security loophole rather than 
bolstering security. For example, an individual may commit a 
disqualifying offense in Florida that is only in the Florida database 
but has not been uploaded into the FBI's database. That individual 
would not be able to get a TWIC at one of the Florida ports but he/she 
could get the TWIC from a South Carolina port, because the check 
against the FBI's database will not reveal the disqualifying offense in 
Florida. If the disqualifying offense indicates that the individual is 
a threat in Florida (which purportedly is the rationale for having a 
list of disqualifying offenses), then that same individual is also a 
threat in South Carolina. The failure to upload state data in a timely 
manner is a problem that needs to be addressed for the security of the 
whole.
    Other than the differences between the criminal history databases, 
it is difficult to conceive of scenarios where a state's judgment on 
security of the Nation's supply chain should supplant the Federal 
Government's considered judgment. If such a scenario exists, however, 
the state should have to make the case to Federal authorities on a 
case-by-case basis. Otherwise, the Federal standards should be 
controlling. This, and the consolidation discussed earlier, would help 
return the TWIC to being the ``one card to deal with which would be 
acceptable across the United States.''
    Finally, ATA understands that securing the Nation's supply chain 
involves costs. The trucking industry is willing to bear the cost of 
one--but not multiple--background checks and security credentials. The 
stovepipe approach to security programs taken by TSA has resulted in 
the unnecessary imposition of wasteful costs.
    As discussed above, the processes for submission of fingerprint and 
biographical data for the HME background check and the TWIC background 
check are essentially the same. The main difference is that, under 
TWIC, the individual has a photograph taken and ultimately receives a 
security credential. A driver that has undergone the HME background 
check process pays a fee of $94 in 34 states (including D.C.) that use 
the TSA contractor for information collection. This fee included paying 
for nearly $4.8 million to set up the TSA Screening Gateway. Under the 
proposed TWIC rule and TSA briefings on the rule, that same driver will 
be asked to pay another $105 for the TWIC process. While the cost 
justification in the proposed TWIC rule is sufficiently vague to 
prevent us from knowing what the categories of costs are covering, ATA 
finds it hard to believe that the cost for taking a digital photo and 
producing a biometric card amounts to $105--particularly when a cost 
estimate from another government agency for the production of similar 
biometric cards is in the $10-$12 range. In justifying this $105 cost, 
TSA has stated that $45-$65 is for information collection, i.e., the 
same fingerprints and biographical information already submitted for 
the HME process plus a digital photograph.
    Since the HME background check rule was promulgated after passage 
of the MTSA requirement, it seems that reasonable forethought would 
have suggested storing the fingerprints and biographical information of 
HME driver-applicants. This would have meant the only information 
collection cost would have been the capture of a digital photograph. 
Surely, that would not cost between $45 and $65. However, TSA chose a 
non-uniform approach to information collection, allowing states to 
elect to conduct the information themselves or use a TSA contractor. In 
the 17 states electing to conduct information collection themselves, 
TSA has no control over what happens to the fingerprints. ATA hopes 
that TSA will address these types of self-erected hurdles that simply 
add to the costs borne by the trucking industry.
    The consideration of the TWIC concept transportation-wide began as 
early as December 2001. Its implementation has been marred by numerous 
delays. Admittedly, there are a number of issues to consider and get 
right. ATA is alarmed that, rather than building a scalable program 
that is true to the concept laid out by Admiral Loy and his 
predecessors, TSA is simply building another stovepipe program to 
screen workers at the seaports.
    ATA does not oppose background checks of individuals in the 
trucking industry. ATA does oppose the wasteful expenditure of 
resources--both government and private sector--that comes with 
conducting multiple background checks of the same individual against 
the same databases. The trucking industry has consistently demonstrated 
its willingness to contribute to the security of the homeland and its 
willingness to pay the costs related to driver screening. In return, 
ATA simply asks that these costs be reasonable and part of an efficient 
process. ATA supports an approach that is good for security--and good 
for commerce.
                                 ______
                                 
     Joint Prepared Statement of James Kneeland, Director, Project 
   Management Office, Florida Department of Highway Safety and Motor 
 Vehicles; and Florida Highway Patrol Colonel Billy Dickson (Retired), 
                        Florida UPAC TSA Liaison
Florida Perspective--Introduction
    First of all, Florida firmly believes that the Transportation 
Workers Identification Credential (TWIC) has the potential to be the 
archetype of a secure credential.
    During the past 2 years Florida has worked closely with TSA and 
believes that the implementation of a Transportation Workers 
Identification Credential is a key ingredient to national security at 
transportation modes.
    This document is not meant to be a criticism of any entity or 
person but instead will hopefully provide some additional insight into 
a methodology for implementation.
    We have identified a chronology of events culminating with 
recommendations. In addition, we have learned several valuable lessons 
which we would like to share with the Committee.
I. Detailed Events Timeline
2003

  <bullet> June--Florida passes Section 311.125, Florida Statutes, 
        mandating a biometric credential for Florida's public entity 
        seaports modeled on the TWIC standard.

  <bullet> (July to October)--Florida builds team and requirements 
        document for a Florida Uniform Port Access Credential (FUPAC).

  <bullet> (October-December)--Florida negotiates with TSA for a 
        Memorandum of Understanding (MOU) and Memorandum of Agreement 
        (MOA).

2004

  <bullet> January--Florida signs a MOU with TSA.

  <bullet> February--Florida signs MOA with TSA.

  <bullet> February to June--Florida assists with TWIC design.

  <bullet> June to August--Florida participates as a member of Request 
        For Proposal Committee to evaluate technology vendors.

  <bullet> August--TSA Awards prototype contract (Phase III) to 
        BearingPoint.

  <bullet> September--HSMV was advised by TSA that the Phase III 
        Prototype would involve an Initial Operating Capability (IOC) 
        which was basically a prototype of a prototype.

  <bullet> November--End of November finish IOC.

  <bullet> December--Florida meets with vendor (BearingPoint) and then 
        reports to TSA that the system has potential problems.

2005

  <bullet> January--Florida meets with TSA in Washington, D.C., to 
        identify the potential problems and highlights a number of 
        significant issues with the system.

  <bullet> February--Concerned about the system Florida meets with TSA 
        who reaffirm support.

  <bullet> March--Florida meets with TSA--still problems with system, 
        TSA assures Florida system will be ready in April.

  <bullet> April--Florida outlines several concerns to TSA via e-mail.

  <bullet> May--TSA claims system is ready. Florida advises TSA that a 
        User Acceptance Test must be performed before rollout to 
        Florida seaports. TSA reported they could not test because 
        printing capability was not activated at the Federal Card 
        Production Center.

  <bullet> June--Florida checks TSA enrollment centers and discovers 
        significant issues with the enrollment process.

  <bullet> June--End of June TSA reports they are shutting program down 
        due to budgetary constraints.

  <bullet> July--Florida Governor's office intervenes (Office of Drug 
        Control) and TSA meets with the Governors office. TSA agrees to 
        review the feasibility of sustainment for Florida.

  <bullet> August--TSA meets with Florida program directors and 
        acknowledged that the system does not work properly so program 
        would close down but proffers to print cards for Florida at $10 
        per card in Corbin, Kentucky.

  <bullet> September--Following several discussions, TSA and Florida 
        agree to perform a User Acceptance Test (UAT) to verify system 
        works properly.

  <bullet> October and November--UAT is conducted. System still has 
        problems but Florida agrees to move forward at meeting in 
        Governor's office with TSA, provided that TSA would 
        appropriately support the system.

  <bullet> December--Florida team meets in Washington, D.C. with TSA. 
        TSA promises support so Florida sets up Pensacola to be first 
        port scheduled for activation on January 9, 2006.

  <bullet> December 29--TSA notifies Florida that, due to lack of 
        funds, they are delaying the program until further notice.

2006

  <bullet> February--Lacking response from TSA, Florida moves forward 
        with Risk Mitigation plans.

  <bullet> February 21--TSA informs Florida that they can retain use of 
        the enrollment centers, however, cannot use the biometric/ICC 
        cards (60,000).

  <bullet> February, March, April--Florida begins implementation of its 
        Risk Mitigation Plan (FUPAC Implementation.)

  <bullet> April--TSA notifies Florida of TWIC badge revocations. 
        Florida queries TSA and is told that the entire system has been 
        taken down.

II. History
    1. The 2003 Session of the Florida Legislature passed and Governor 
Bush signed into law an amendment to Chapter 311, Florida Statutes, 
adding Sec. 311.125, Florida Statutes. The amendment mandates a Florida 
Uniform Port Access Credentialing (FUPAC) system and charged the 
Department of Highway Safety and Motor Vehicles (DHSMV) with design, 
implementation and management of the new credentialing and access 
control system. Prior to the passage of the legislation, commercial 
interests who engaged in business on multiple Florida seaports were 
required to obtain and pay for access credentials, including multiple 
fingerprint-based background checks for each port.
    2. The 2003 legislation strengthens security by creating a central 
credential repository in the Florida Department of Highway Safety and 
Motor Vehicles (DHSMV), adding modern security elements to the 
credential, alleviating the concern of stakeholders related to the cost 
of multiple credentials \1\ for the public port system in Florida.
---------------------------------------------------------------------------
    \1\ Truck drivers were required to purchase a separate credential 
at each port requiring a separate background check at each port. The 
new statute provided for a single Florida credential and one background 
check valid at all ports.
---------------------------------------------------------------------------
    3. While the statutory revision charged DHSMV with the development 
of the credentialing and access control system, the revised statute 
also called for DHSMV to act in consultation with the Florida 
Department of Law Enforcement; Florida Seaport Transportation and 
Economic Development Council; Florida Trucking Association; modeling on 
the TSA TWIC in the development of a Uniform Port Access Credential 
System that provides a biometric confirmation of claimed identity and 
on-site verification of access authority for all persons having 
business necessity aboard a public seaport. The statute retains the 
granting of access privileges to the seaport and continues the 
authority of seaports to allow access to seaports for visitors and 
persons having limited business necessity without a permanent port 
access credential.
    4. As noted above, a key component of the statutory revisions 
called for the FUPAC to be modeled on the emerging Transportation 
Workers Identification Credential (TWIC) under development by the 
Transportation Security Administration (TSA).
    5. In 2003, a $3 million Federal grant was awarded through the 
Office of Domestic Preparedness (ODP) to DHSMV for the design, 
development and implementation of the TWIC/FUPAC project.

        a. The majority of the grant was allocated to the development 
        and implementation of the state access control system and its 
        interface with the TWIC card.

    6. At the request of TSA, Florida provided a Florida Integrated 
Project Team leader (FIPT) who was embedded with TSA for 6 weeks in 
Washington D.C. for training and development of a long-term MOA between 
TSA and DHSMV. DHSMV selected a team leader with over forty years of 
experience in law enforcement, credentialing and criminal 
investigations related to credentialing fraud. The Florida IPT, Col. 
Billy Dickson, is considered to be a national expert on identity 
issues, regularly serving on national committees for AAMVA, the 
American Association of Motor Vehicle Administrators.
    7. In early 2004, TSA replaced the Florida IPT with a Federal FTE 
position and removed the DHSMV position. However, Florida retained Col. 
Dickson. Well-known and respected throughout Florida and the country, 
Col. Dickson continues to serve as liaison with TSA and act as an 
advocate for the Florida seaports, as well as coordinating the 
implementation effort.
    8. In 2004, Florida also hired an Information Technology (IT) 
expert to serve as Director of the program for Florida. The Director, 
James Kneeland, has over 30 years experience as a CIO and IT Architect. 
He has successfully installed dozens of systems and has experience as a 
Systems Engineer with EDS, and helped implement the National Flood 
Insurance program in 1978 and a Medicare-A system that became a HCFA 
standard in 1985. As a Senior Executive and CIO with the Massachusetts 
Registry of Motor Vehicles, he also implemented the first imaged 
licensing system in the United States. He has taught IT for 22 years at 
Northeastern University and is a certified PMP (Project Management 
Professional). A nationally recognized expert in IT, Project Management 
and Credentialing, the project Director was viewed as the ideal 
selection to balance a complex IT credentialing project.
    9. A Memorandum of Agreement (MOA) between TSA and DHSMV was signed 
in February 2004. In essence, it's a requirements document indicating 
the responsibilities of TSA and the responsibilities of DHSMV. The MOA 
codified a Federal/state partnership to enhance the security of 
Florida's public seaports. The MOA assigned responsibility to TSA to 
design, develop and implement a Federal credentialing system that 
includes applicant vetting, threat analysis and ties claimed identity 
to an individual through the Federal I-9 form. \2\ Claimed identity 
would be verified and tied to the individual through a reference 
biometric (fingerprint) that would be retained in the Federal Identity 
Management System (IDMS) and would be embedded as a reference biometric 
within the credential (fingerprints reside in the Integrated Circuit 
Chip (ICC)).
---------------------------------------------------------------------------
    \2\ Department of Homeland Security, U.S. Citizenship and 
Immigration Services, Employment Eligibility Verification, Form I-9 
(Rev. 05/31/05).
---------------------------------------------------------------------------
    10. The shared vision of TWIC is a high-assurance identity 
credential that is trusted and used across all transportation modes for 
unescorted physical access to secure areas and logical (cyber) access 
to (computer) systems.
    11. The original goals of TWIC included improved security through a 
reduced risk of fraudulent or altered credentials by deploying 
biometrics to positively match an individual to a secure credential; 
enhanced commerce by reducing the need for seaport workers and the 
trucking industry to possess multiple credentials requiring multiple 
background checks; leverage current security investments; protect 
personal privacy by collecting minimal personal data and using a secure 
identity management computer system.
    12. DHSMV participated in the design of TSA's Request for Proposal 
(RFP) process, so DHSMV was able to ensure the TSA design for vetting 
and credentialing would meet the requirements of Sec. 311.12 and 
Sec. 311.125, Florida Statutes.
    TSA agreed to provide:

        a. Up to 30 Federal enrollment centers (computers, software, 
        communications, card production) in 12 Florida seaports;

        b. A Credentialing Management System (IDMS);

        c. Card Production (including printing, shipping, consumable 
        products, etc.);

        d. All necessary communications;

        e. All necessary software;

        f. Up to 238 perimeter ICC (Integrated Circuit Chip) biometric 
        card entry readers; \3\ and
---------------------------------------------------------------------------
    \3\ The placement of TSA provided readers was contingent upon 
seaport infrastructure readiness--only a handful of TSA readers were 
actually installed and those have since been removed and DHSMV provided 
readers will be installed.

---------------------------------------------------------------------------
        g. 60,000 ICC Biometric cards.

    To date, TSA has informed Florida that they can keep the 15 
enrollment centers that were installed during the prototype phase. It 
is anticipated that these 15 enrollment centers will be utilized in 
Florida's FUPAC implementation.
    13. Services and equipment promised by TSA were originally 
estimated to be valued at $7 to $8 million.
    14. DHSMV completed the general design document for the access 
control system and its interface with the Federal Identity Management 
System (IDMS) in April 2004.
    15. TSA awarded a contract to BearingPoint as the prime vendor for 
the development and implementation of the TWIC credentialing prototype 
in August 2004.
    16. The 2003 state legislation specified that ``By July 1, 2004, 
each seaport shall be required to use a Uniform Port Access Credential 
Card.'' and ``Each seaport defined in Sec. 311.09 and required to meet 
the minimum security standards set forth in Sec. 311.12 shall comply 
with technology improvement requirements for the activation of the 
Uniform Port Access Credential System no later than July 1, 2004.'' 
Equipment and technology requirements for the system were specified by 
the department prior to July 1, 2003. The statute mandated that the 
system be implemented at the earliest possible time that all seaports 
have active technology in place, but no later than ``July 1, 2004.''

        a. Due to the unusual partnership formed with TSA, the 
        implementation date of this project was delayed. DHSMV provided 
        numerous reports to Senate, House and Oversight committees to 
        keep everyone informed that progress was being made.

    17. In May 2004, DHSMV awarded a contract to ADT as its prime 
vendor to upgrade existing credentialing and access control systems 
provided to the seaports upon the original implementation of 
Sec. 311.12, Florida Statutes, in 2001.
    18. Picture Perfect<SUP>TM</SUP>, a General Electric (GE) access 
control product, was selected to upgrade existing GE systems previously 
installed in all 12 seaports--two seaports; Ft. Pierce and Port St. Joe 
are classified by FDLE as inactive and exempt from the credentialing 
and access control requirements specified in Sec. 311.12, Florida 
Statutes.
    19. DHSMV in consultation with the Florida Ports Council 
established a Seaport Implementation Committee to establish a method of 
communications with all seaports. Numerous meetings with each port, the 
Florida Trucking Association and other stakeholders have been held to 
continually update stakeholders on the status of the project and define 
the detailed design of the credentialing and access control system.
    20. DHSMV also built a website dedicated to the TWIC/FUPAC program 
to insure seaports were versed in all aspects of the program.
    21. DHSMV has completed the fee structure for the TWIC/FUPAC in 
accordance with Section 311.125, Florida Statutes. The fee for a four-
year credential is set at $100.00 (no TSA fee was indicated by TSA 
since TSA does not currently have rulemaking authority to assess a 
credentialing fee--joint rulemaking involving the U.S. Coast Guard and 
TSA is ongoing and draft rules are expected to be published in the 
second quarter of 2006. The readily apparent benefit to the trucking 
industry and other seaport workers is one credential, one fingerprint-
based background check and one fee for the TWIC/FUPAC credential. 
Individual workers will see a substantial cost reduction with the one-
time process credentialing system.
    22. TSA signed a unique partnership agreement with the State of 
Florida [DHSMV] which provides equipment, software, services and 
credentials. The intent was for the credential to be governed 
originally by the Florida FUPAC laws (311.125) and once TSA finalized 
its rules the FUPAC card would morph into a TWIC card. Because of this 
unique arrangement, Florida and the ports would only have to implement 
the credential once.
    23. The TSA/DHSMV MOA provides equipment, software, services and 
credentials. In return Florida agreed to assist TSA in their prototype 
by allowing special readers to be placed in specific locations in each 
port. The readers have the capability to collect metrics which allow 
TSA to gather information. This information would assist TSA in moving 
forward with appropriate recommendations for final TWIC implementation. 
Each port has for the most part done everything possible to meet the 
infrastructure requirements necessary for TSA (for a variety of 
reasons, some seaports did not complete their infrastructure 
requirements in time to assist TSA in the collection of metrics. This 
is of particular importance since it reflects the problems seaports 
have in installing readers and gates. It requires ports to break 
concrete, install conduits and cable and build-out pedestals).
    24. TSA Enrollment Centers have been installed at 12 seaports. If 
TWIC had been implemented in Florida seaports, the centers were 
necessary to capture all the applicant data along with full-face 
digital images, fingerprint and associated documents. This hardware 
setup went relatively smooth and is a credit to TSA and the TSA PMO 
Team.
    25. TSA developed and implemented an Identity Management Data 
System (IDMS) in May 2005. Although TSA claimed the IDMS was in place, 
Florida was concerned that it was not ready for production enrollment 
capability. A rudimentary UAT (User Acceptance Test) was performed on 
May 23, 2005, with six transactions. While the six transactions were 
completed, the test indicated that the system was not ready for 
production service.
    26. In June of 2005, the Florida Director, James Kneeland, test 
enrolled at Pensacola. The transaction was completed. However, it took 
over 40 minutes and had several problems associated with it.
    27. In late June of 2005, TSA informed Florida that they were out 
of funds so they had to close the program down.
    28. Florida objected and after several months of negotiation TSA 
agreed to conduct a User Acceptance Test (UAT) to test approximately 
100 enrollments through the credentialing system. The UAT was conducted 
at the Port of Pensacola in October 2005, with the enrollment of 17 
applicants; Port Canaveral in November, with the enrollment of 
approximately 17 applicants; and, Port Manatee, with the enrollment of 
approximately 33 applicants.
    29. After a thorough analysis of the UAT data, DHSMV concluded that 
the functionality of the system (TWIC enrollment and identity 
management system) was sufficient to allow the State of Florida to work 
with TSA to begin the process of systematically rolling out the 
credentialing system to 12 deep-water seaports, provided that TSA would 
commit to active support of the enrollment and identity management 
process.
    30. This recommendation was predicated on the requirement for TSA 
to provide support, sustainment and enhancement of enrollment software, 
especially, the fingerprinting component of the enrollment process.
    31. A meeting was held at TSA in early December and everyone agreed 
to an implementation starting with Pensacola on January 9, 2006.
    32. On December 29, 2005, TSA notified Florida that the 
implementation at Pensacola needed to be called off until further 
notice due to budgetary constraints.
    33. Communication since December 29, 2006 has been minimal.
III. Lessons Learned/Recommendations
    34. Throughout the project TSA has made numerous management 
changes. The lack of stability, constant change, learning curves and 
changing management styles has been devastating to this program. TSA 
needs to stabilize positions and utilize personnel who understand 
credentialing, access control, IT solutions and large-scale project 
management.
    35. A lack of planning has also been devastating to this project. 
It was a criticism of the GAO and Florida in 2005 and it is still a 
major issue. It is imperative that not only should TSA partner but they 
should effect planning sessions with their clients and partners.
Federal Rulemaking and Background Vetting
    36. TSA and U.S. Coast Guard joint rulemaking is an issue for 
Florida and both agencies have been briefed on Florida's concerns. It 
is important to recognize that under existing law in Florida, 
Sec. 311.12 and Sec. 311.125, Florida Statutes, a very high bar has 
been set for entry into restricted access areas and employment on the 
14 public agency-owned landlord tenant congregate waterfront facilities 
located in the ports within the state (12 ports are actually involved 
in the TWIC implementation and two ports are exempt pursuant to the 
provisions of Sec. 311.12, Florida Statutes.) If the TWIC requirements 
were to preempt existing law in Florida and if the TWIC requirements 
are not equally stringent the TWIC process will not ``significantly 
improve security within U.S. ports'' for the particular ports in which 
these public landlord tenant facilities exist because they make up a 
significant portion of the overall general commercial activity in the 
port and they make up the overwhelming majority of foreign cruise and 
passenger day cruise vessel activity in the ports in Florida. If the 
TWIC does not meet the minimums imposed by Florida law within these 
publicly-owned lands operating in maritime commerce security will in 
fact by definition be reduced. Therefore, it must be understood that 
for Florida the issues associated with the TWIC need to be examined 
both from the perspective of existing operations on private property 
and the security required on publicly-owned maritime landlord tenant 
facilities.
    37. From the original concept of TWIC, the process has evolved with 
the intent and assurance of a high level of security to the entire 
process; however, the credential is only as good as the foundation 
documents that will tie a person to a claimed identity. Additional 
safeguards on the front-end process, such as verification of legal 
presence and work authorization for foreign nationals and verification 
of social security numbers, must be included in the TWIC 
implementation. DHSMV remains committed to work with TSA to meet these 
requirements during the Florida implementation phase.
    38. In the future, IF TWIC is implemented in Florida, TSA and/or 
DHSMV should (the below recommendations also apply to the 
implementation of a state-issued seaport credential):

        a. Provide the means to verify claimed identity foundation 
        documents;

        b. Provide a technology solution to ensure all foreign 
        nationals applying for a TWIC have legal presence and work 
        authorization;

        c. Provide a methodology to evaluate both state of residence 
        criminal history repository information as well as Federal 
        (FBI) criminal history data:

                 --It is anticipated for the future that TSA will 
                conduct a threat assessment check and a Federal (FBI) 
                criminal history check that will not include the state 
                of residence criminal history; and

                 --NOTE: In Florida approximately 1.5 million criminal 
                history records are indexed at the state level that are 
                not included in the FBI criminal history records; \4\ 
                and
---------------------------------------------------------------------------
    \4\ Source--FDLE.

        d. TSA and DHSMV must provide standardized training to all 
        trusted agent (enrollment center) personnel.
Summary
    Florida is poised and ready to implement a biometric credentialing 
system modeled on TWIC standards and turn on the state access control 
system that is dependent on the biometric credential. The Florida team 
is committed to the implementation of a system that is effective and 
provides the seaports with a highly secure credentialing and access 
control system.
    DHSMV continues to build-out the access control system; has 
acquired 170 hand-held (portable) biometric readers and has initiated 
the purchase of the first-round of fixed biometric readers (and 
accompanying infrastructure--panels, micros, etc.) Additionally, DHSMV 
has developed a ``fail-safe'' solution that will provide for a state 
uniform credential that is compatible to the Federal TWIC credentialing 
system.
    Florida will be moving forward on a parallel path to implement a 
Florida Uniform Port Access Credential (FUPAC) that will employ the 
TWIC standards. Florida remains optimistic that the Federal 
credentialing system and a support mechanism for the Federal system 
will be implemented at some point in the future and the Florida 
implementation will allow incorporation (within specific parameters to 
be negotiated) of the Federal credentialing process into the Florida 
system. It is now anticipated that the state implementation (roll-out) 
will take place beginning in mid-July 2006.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ted Stevens to 
                        Hon. Michael P. Jackson
    Question 1. How do you guarantee against duplicates or multiple 
identities?
    Answer. As tested during prototype, the Transportation Worker 
Identification Credential (TWIC) Identity Management System 
automatically conducts a ``one-to-many'' search of each new applicant's 
fingerprints against the stored fingerprints of all previous applicants 
to verify that the new applicant has not previously applied for a TWIC. 
The final system design may be altered as required by the TWIC 
implementing rule.

    Question 2. How do you keep aliases out of the database?
    Answer. As tested during prototoype, the Transportation Worker 
Identification Credential (TWIC) application and vetting processes were 
designed to prevent an individual from using an alias to obtain a TWIC. 
Specific processes included:

  <bullet> Digitally scanning and storing each document presented to 
        verify an applicant's identity.

  <bullet> Confirming the authenticity of passports, driver licenses, 
        and alien registration cards through the use of a specialized 
        document authenticator.

  <bullet> Verifying the claimed identity against immigration status 
        databases.

  <bullet> Binding the claimed identity to the applicant with 
        biometrics using both photo and fingerprints.

  <bullet> Conducting a ``one-to-many'' search of each new applicant's 
        fingerprints against the stored fingerprints of all previous 
        applicants to verify that the new applicant has not previously 
        applied for a TWIC.

    The final system design may be altered as required by the TWIC 
implementing rule.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                        Hon. Michael P. Jackson
    Question 1. Is it correct that if a port truck driver receives a 
TWIC, they will not be required to undergo an additional background 
check to get a Hazardous Materials Endorsement?
    Answer. Yes, as proposed in the Transportation Worker 
Identification Credential (TWIC) notice of proposed rulemaking, that is 
correct.

    Question 2. Where is the Department on implementing the SAFETEA-LU 
Hazardous Materials Endorsement background check provisions? Has the 
Department begun the rulemaking required by SAFETEA-LU to determine 
which background checks are equivalent to the Hazardous Materials 
Endorsement background check?
    Answer. The Transportation Security Administration (TSA) has 
proposed standards to determine the comparability of other governmental 
background checks in the Transportation Worker Identification 
Credential (TWIC) proposed rule, which was published May 22, 2006. The 
proposed rule also states that the background check administered by the 
U.S. Customs and Border Protection (CBP) Free and Secure Trade (FAST) 
program and the hazardous materials threat assessment are comparable. 
After reviewing comments and making any necessary changes to the 
proposed rule, TSA will publish a final rule that includes 
comparability standards and comparability determinations.

    Question 3. As you may know, Section 7105 of SAFETEA-LU requires 
states that have additional background check requirements for Hazardous 
Materials Endorsements provide due process procedures for applicants 
identical to those offered to applicants undergoing the Federal 
background check. Will DHS require states that develop their own 
security credentials above and beyond TWIC to provide the same due 
process procedures for applicants as the Federal Government provides 
applicants under the TWIC application process?
    Answer. The Transportation Security Administration (TSA) issued a 
proposed rule for the Transportation Worker Identification Credential 
(TWIC) on May 22, 2006, held four public hearings, and is currently 
assessing comments from the industry and public. Therefore, we cannot 
determine at this time what the final TWIC standards will require. 
Federalism concerns may prevent the Department of Homeland Security 
(DHS) from requiring certain specific state actions.

    Question 4. Can you explain the individual components that make up 
the roughly $100 cost of a TWIC (Transportation Worker Identification 
Credential) that is charged to hazmat-endorsed truck drivers? Since 
they already have a background check that satisfies the requirements of 
TWIC, what else must they pay for beyond the card itself?
    Answer. As described in the Notice of Proposed Rulemaking for the 
Transportation Worker Identification Credential (TWIC), TSA estimates 
that applicants who already have a Hazardous Materials Endorsement will 
be charged an estimated $105 for a TWIC. The components of those costs 
are as follows:
  
                               Enrollment/Issuance--       $55
                             Credential Production--       $50
                          ----------------------------------------
                                             Total--      $105

    The Threat Assessment estimated cost, including the $22 paid to the 
Federal Bureau of Investigation (FBI) for its Criminal History Records 
Check (CHRC) and paid by applicants without a comparable background 
check, is not assessed to applicants with a comparable current 
background check.

    Question 5. Are the truck driver fingerprints collected through the 
Hazardous Materials Endorsement background checks retained by the 
Transportation Safety Administration (TSA)? Can these fingerprints be 
used for the TWIC application or will drivers have to be re-printed?
    Answer. The Transportation Security Administration (TSA) retains 
only those fingerprints collected by the TSA agent in 33 states and the 
District of Columbia. Seventeen states collect fingerprints using 
existing state infrastructures and may or may not store fingerprints. 
Regardless of the availability of fingerprints from sources other than 
the Transportation Worker Identification Credential (TWIC) enrollment 
process, good business practice is to maintain a chain-of-trust for all 
data that requires the collection of identity documents and biometric 
data (photo and fingerprints) during a single, seamless enrollment 
process. This process avoids potential data file matching errors and 
conforms to the Personal Identity Verification procedures required by 
Federal Information Processing Standard (FIPS) 201-1. Since all TWIC 
applicants must be present to enroll, the incremental time and cost to 
collect fingerprints with the scanning device during enrollment is 
small.

    Question 6. Under the Coast Guard's Maritime Identification 
Credentials program announced in the Federal Register on April 28, 
2006, port workers and sailors needing unescorted access to secure port 
areas are required to undergo name-based background checks to receive a 
credential until the TWIC (Transportation Worker Identification 
Credential) program is implemented. I understand port truck drivers, 
who make up one of largest segments of port workers and have access to 
most areas of a port, are exempt from this requirement. Can you explain 
why?
    Answer. The Coast Guard's Maritime Identification Credentials 
program was an interim security measure at our ports. It was not 
intended to replace the Transportation Worker Identification Credential 
(TWIC) nor was it intended to capture the entire maritime port worker 
population. Long-haul truckers, due to their high degree of mobility, 
were not included in this measure. The measure targeted those 
populations within the more direct control of port facility and vessel 
operators. Name-based background checks are an immediate security 
measure designed to limit individuals that pose a threat from gaining 
access to port facilities. This is a first step that covers those 
individuals with frequent access to our ports. Other populations are 
expected to be covered when the TWIC program is fully implemented.

    Question 7. If it was deemed too difficult to require name-based 
background checks for port truck drivers under the Maritime 
Identification Credentials program, how will the Transportation 
Security Administration (TSA) handle fingerprint-based background 
checks for port truckers when TWIC is implemented?
    Answer. All workers requiring a Transportation Worker 
Identification Credential (TWIC) will enroll in exactly the same manner 
at enrollment sites operated by TSA through contract arrangements.

    Question 8. Based on your testimony, you say that the TWIC pilot 
project awarded to BearingPoint has proven that the TWIC technology can 
work in the field. Yet the Delaware Exchange testimony indicated that 
the biometric was never tested in the pilot and the interoperability of 
the pilot was tested in limited circumstances. How do you account for 
the failure to test biometrics and the cards interoperability and still 
claim the pilot was successful?
    Answer. During prototype, biometric readers were tested at selected 
maritime facilities in the three prototype test areas: Delaware River 
Valley; Florida; and Los Angeles/Long Beach. Biometric readers were 
tested at maritime facilities in Florida and LA/LB. Readers matched the 
fingerprint template on the prototype card to the template generated by 
the fingerprint scanning pad on the reader. Since the Transportation 
Worker Identification Credential (TWIC) prototype tests, the National 
Institute of Standards and Technology (NIST) has specified the 
fingerprint template biometric as the standard for all government 
employee Personal Identity Verification (PIV) credentials. The 
interoperability of the TWIC with a wide variety of readers is assured 
since TWIC will follow the technical standards set by NIST for all 
government PIV credentials.

    Question 9. The TWIC pilot project contract was originally to 
include 75,000 workers at a cost of $12.3 million. However, according 
to the August 2005 BearingPoint Report it ended up including only 1,657 
cards, costing $22.8 million. The pilot project was over budget and 
undersubscribed. How can you say this pilot was successful when only 
1,657 cards were used in the field?
    Answer. The objectives achieved during Phase III of the 
Transportation Worker Identification Credential (TWIC) Prototype 
Program were to: (1) assess performance of conceptual TWIC identity 
management business processes; (2) assess performance of TWIC as an 
access control tool; and (3) assess readiness of TWIC system for 
production phase. The Transportation Security Administration (TSA) 
concluded that the TWIC prototype system is functional and met all 
requirements specified for the prototype. TSA has concluded that the 
TWIC prototype business processes demonstrated the capability to meet 
each of the broad objectives of the TWIC missions-need statement.

    Question 9a. Further your testimony claims over 4,000 cards were 
tested. What date are you drawing this metric from? What was the cost 
of the sustaining the BearingPoint contract to this date?
    Answer. Following the conclusion of prototype testing on June 30, 
2005, the Transportation Security Administration (TSA) continued to 
enroll workers and issue prototype Transportation Worker Identification 
Credentials (TWIC) to support those facilities that participated in 
prototype and wished to continue using the TWIC for their access 
control systems. By the time TSA concluded this support to prepare the 
system for implementation, over 4,000 cards had been issued to workers. 
During this extended period, TSA gained additional confidence in the 
TWIC system's ability to routinely enroll workers and provide them with 
credentials quickly and efficiently. As of May 31, 2006, $26.3 million 
had been expended on the BearingPoint prototype contract.

    Question 10. How does TSA and the Coast Guard plan to administer 
their responsibilities for processing TWIC cards and Merchant Mariner 
Documents (MMD)? Will the Coast Guard be processing an application for 
an MMD at the same time that TSA is processing the TWIC application or 
will the Coast Guard wait to process a MMD until after TSA completes 
the vetting process for a TWIC card? How will TSA be notifying the 
Coast Guard when a TWIC background check is completed? What specific 
functions of an MMD application is being transferred to TSA?
    Answer. It is the Coast Guard's intent to obtain identity data from 
TSA and use it to process mariner applications for Merchant Mariner 
Credentials. The Merchant Mariner Credential (MMC) would take the place 
of the current merchant mariner license, document and Certificate of 
Registry, so the Coast Guard would be issuing an MMC and no longer 
issue the MMD referenced in the question above. In the Notice of 
Proposed Rulemaking (NPRM) published in May, the Coast Guard proposed 
to begin processing MMC applications only after an individual was 
issued a TWIC. In the public meeting process, the Coast Guard and TSA 
received many comments about the current delay in the MMD/Licensing 
process and the concern that the public has with respect to adding a 
TWIC processing time onto that process. All of these comments will be 
addressed in the final rule.

    Question 12. How does the Coast Guard plan to apply TWIC card 
verification procedures on vessels? How is a secure area defined on 
vessel? Does this restrict vendors, contractors from access to a vessel 
for people performing minor repairs unless they have a TWIC card?
    Answer. The Coast Guard and Transportation Security Administration 
are reviewing comments received in response to the joint notice of 
proposed rulemaking. It would be inappropriate at this time to provide 
a detailed response because the rulemaking process is ongoing. The 
final rule will address TWIC verification onboard vessels and at 
facilities. There will be clarification regarding the areas where TWIC 
will be required.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ted Stevens to 
                             Lisa B. Himber
    Question 1. Would you explain what you see as the biggest 
vulnerabilities at your port facility that need to be addressed?
    Answer. The Maritime Exchange for the Delaware River and Bay does 
not represent a single port facility; rather we represent each of the 
facilities operating in the port region, including both public- and 
private-sector, handling general cargo, containers and petroleum 
facilities in each of the three states bordering the Delaware River. 
Accordingly, the answer to this question will be specific to those 
vulnerabilities associated with access control rather than other 
potential areas of exposure or weakness.
    An attack against a vessel docked at a maritime facility, 
particularly an oil, gas or chemical tanker, would certainly result in 
a major disruption to Delaware River Port operations. Undoubtedly we 
could expect a cessation of all port activities for many days or weeks. 
A larger concern from a public health and safety perspective surrounds 
a shore-based attack on the facility itself (e.g., someone driving a 
truck laden with explosives into a facility). An event of this scope 
has the potential for much greater impact on the surrounding population 
than would an attack against a single vessel.
    Additionally, under MTSA, facility security officers (FSOs) are 
required to ensure that everyone entering their facilities has the 
right and the need to do so. That there is no standard, effective 
system in place to provide FSOs with advance notice of gate schedules--
or modifications to those schedules--leaves a security hole. Obviously, 
the operations at each trucking company or facility will be unique to 
its needs, and such an advance notification system may not be practical 
in every instance. Yet in many instances. not only are some FSOs 
unaware of who is planning to arrive on any given day to drop off or 
pick up cargo, but when those individuals reach the facility. there are 
many who are unknown to security personnel.
    Most facility operators in the Delaware River region require a U.S. 
or Canadian driver's license at a minimum, and all truck drivers will 
have paperwork authorizing them to pick up (delivery order) or drop off 
(booking), but there are no guarantees that these documents are 
legitimate or that the individuals have undergone security screening.
    Another vulnerability exists waterside at some facilities. In 
reality, many facility operators have no advance information on what 
crew members--U.S. or foreign--will be arriving on vessels docking at 
their facilities. In many instances, facilities are not provided with 
crew/non-crew manifest at any point during the vessel call. If ships 
are coming from foreign, FSOs must rely on an advance screening of 
these persons by U.S. Customs and Border Protection. If an individual 
is deemed to be high-risk, CBP and Coast Guard will require that the 
vessel owner (or operator/agent) hire a security guard or take other 
appropriate measures to ensure the individual does not attempt to 
debark the vessel. The facility operator is not necessarily privy to 
this information.
    Facility and vessel owner/operators would prefer that if an 
individual is deemed high-risk, he be escorted off the vessel/facility 
by appropriate Federal personnel.

    Question 2. How far would implementation of the TWIC go toward 
mitigating those vulnerabilities?
    Answer. While it would not completely eliminate the vulnerabilities 
described above, the TWIC will go a long way toward minimizing current 
susceptibilities. With the exception of aliens arriving by vessel (or 
indeed foreign seafarers arriving via land to join a ship) who are 
exempted from the TWIC program as proposed May 22, with the TWIC 
program in place FSOs would have the assurance that the individuals 
arriving at their facilities have undergone security screenings. This 
would provide a measure of expectation that the individual is less 
likely to attempt a terrorist action, or otherwise tamper with, steal, 
or mishandle vessels, containers and cargoes moving through U.S. 
seaports.
    This assurance is further heightened due to the fact that TWIC is 
designed to be used in conjunction with a biometric identifier and is 
in fact a tamper-proof credential.
    Used in conjunction with other programs mandated under the Maritime 
Transportation Safety Act or individual vessel/facility security plans. 
it is expected that TWIC will be a valuable tool to harden access 
control to U.S. ships and facilities.
    Currently, it is anticipated that foreign seafarers will be 
exempted from the TWIC regulations when they are promulgated.

    Question 3. Why has it taken so long for the Federal Government to 
implement the TWIC and what improvements would you recommend that the 
government make?
    Answer. With regard to the first part of the question. one can only 
speculate. As indicated in the written and oral testimony presented May 
16, I believe a large part of the delay has resulted from the continual 
changes in program management--from leadership at all levels down to 
the day-to-day operating staff. The largest gap in the TWIC deployment 
schedule seemed to be between the end of Phase II, the Technology 
Evaluation, in October of 2003 and commencement of Prototype in 
November of 2004. I believe it was during this time that questions 
surfaced as to whether TSA should issue a standard or manage the 
program, but I do not know whether there were other factors involved 
which postponed the schedule so dramatically. It appears reasonable to 
assume that the learning curve faced by the new personnel within the 
TSA program office, coupled with the fact that TSA utilized different 
contractors for Phase III than were involved in Phase II, may have 
prolonged the delay.
    I also believe there was another unexpected setback associated with 
a modification of the contract for the TWIC Prototype Phase after it 
had been awarded: I was apprised neither of the scope of the 
modification nor the reasons for making the change. Last, I understand 
there was a suspension of activity in late 2004, early 2005, while the 
card production activities were moved mid-process from a facility in 
Pennsylvania to one in Kentucky. I am not aware of why the decision was 
made to start the process in Pennsylvania or why it was moved once 
started.
    I am unfamiliar with the level of technical and operational 
training made available to both program managers and ``trusted agent'' 
contractors, but I believe many individuals involved in the pilot 
program experienced significant delays associated with improper use, 
operation, and performance of the system.
    With regard to improvements that can be made, I offer the 
following:
A. Program Management

  <bullet> To ensure future delays are minimized, or at least the 
        effects of such delays are mitigated, it might be appropriate 
        to create a Government-Industry Oversight Committee to work 
        with TSA and address issues as they arise during the 
        implementation period.

  <bullet> TSA should also establish a consistent and clear method of 
        communicating information to government and industry 
        stakeholders.

  <bullet> DHS must identify a mechanism to ensure program and 
        contractors management and staff personnel will remain with the 
        program through implementation.

  <bullet> Program staff must undergo sufficient training to ensure 
        they can operate the system effectively. If necessary, 
        technical personnel should be available onsite to address any 
        system deficiencies within a reasonable time-frame. In many 
        offices, for example, IT contractors must guarantee a response 
        time of not more than 4 hours. TWIC personnel must also be 
        conversant with the regulations governing the program and its 
        myriad processes (such as, who is required to obtain a TWIC, 
        background checks, how to request an appeal, etc.) to ensure 
        they can answer applicant's questions in a timely and accurate 
        manner. Along these lines, TSA and Coast Guard should develop a 
        joint Frequently Asked Questions (FAQ) document.

  <bullet> The U.S. should work through the International Labor 
        Organization to ensure that all mariners be in a position to 
        provide electronic verifiable credentials which are compatible 
        with TWIC. If the ILO adopts a technology which is incompatible 
        with TWIC, the U.S. must be prepared to adopt the international 
        technology in a reasonable, low-cost time-frame.

B. Program Operation

  <bullet> Test the technology--more below.

  <bullet> TSA should modify the web portal to allow for additional 
        automation of TWIC tasks. For example, the TWIC portal could be 
        used to request a replacement card rather than a personal 
        visit.

  <bullet> TWIC can serve as a building block for a host of programs 
        which will improve security while facilitating commerce at U.S. 
        seaports and in other modes of transportation. For example, it 
        can serve as the basis for an advance terminal gate appointment 
        system as described above, it can be used to tie a truck driver 
        to a company, which can then potentially be tied to an 
        electronic version of a cargo delivery order. This electronic 
        delivery order could likewise be linked electronically to the 
        cargo manifest provided by the ocean carrier to the facility 
        operator, further strengthening the security of the cargo 
        supply chain once the cargo lands in the U.S.

  <bullet> TSA should add the capability for applicants to request 
        access at multiple facilities at time of enrollment. TWIC 
        holders might also use the TWIC portal to request access to any 
        facility to which they've not been granted access previously. 
        This will go a long way toward minimizing the amount of time 
        spent entering data into the facility internal access control 
        systems upon first arrival.

  <bullet> Some operators require color codes to visually determine 
        that an individual has rights to be in a certain part of the 
        vessel or facility (or warehouse, railyard, etc). TSA should 
        work with industry to identify mechanisms which may be used to 
        visually identify individuals via the TWIC.

  <bullet> During the pilot program. there were times when the 
        applicant was not notified that the enrollment center had 
        received the card from the production facility. We suggest TSA 
        include e-mail notifications to the applicant when the card is 
        shipped to and received at the enrollment center.

  <bullet> Because mariners and truck drivers are often away from their 
        homes for extended time-periods, the TWIC program should offer 
        applicants an option to designate an enrollment center for card 
        pick-up or mail the card to their homes or workplaces rather 
        than requiring they to return the center where the applications 
        were originally processed.

  <bullet> In addition to testing the technology. TSA needs further 
        testing on the processes associated with using a TWIC before it 
        can be deployed at maritime facilities on any wide scale. For 
        example, the card hotlisting, revocation and notification 
        processes were not tested, neither was the individual applicant 
        enrollment (vs. employer sponsor enrollment of employees). 
        There are undoubtedly many other additional opportunities for 
        improvement that may present themselves during the next testing 
        phase.

    An opportunity exists to address the vulnerability mentioned above 
regarding facility operators' lack of advance information on which crew 
members will be arriving at their facilities on vessels. This 
opportunity is not available via TWIC, but rather through another DHS 
program: the Coast Guard electronic Notice of Arrival/Departure (eNOA/
D) system.
    Under current regulations, vessel owners or operators must submit 
detailed crew manifest data not less than 96 hours prior to each 
vessel's arrival in the U.S. The Maritime Exchange and others have 
requested on numerous occasions that CBP and Coast Guard provide local 
port community information systems with copies of that eNOA/D data. 
This request has precedent in the CBP ``Port Authority Download'' 
component of the Automated Manifest System. In short, a certified 
entity in a local port, such as a Maritime Exchange or Port Authority, 
can receive electronic copies of all manifest data filed by ocean 
carriers for ships destined for their ports.
    We believe adding similar functionality to the eNOA/D system would 
provide a secure, effective means for the Federal Government to share 
critical data with the private sector, and as illustrated above, fill a 
security gap. To date, however, the Coast Guard has declined requests 
to partner on this initiative.

    Question 4. Do you believe the technology necessary for 
implementing the TWIC at port facilities--card readers, etc.--is ready 
for deployment?
    Answer. No.
    As indicated during my September 16 testimony, there were many 
technical components--and associated processes--that were either 
untested or under-tested during the TWIC pilot program. These include 
the TSA-vessel/database facility electronic communications (database 
updates to facilities, notification to TSA by facilities of who has 
been granted access, and subsequent hotlisting notifications) and 
processes; use of a biometric and/or pin number for access in a 
maritime environment, validation of identification documentation 
provided at enrollment.
    Further, that the use of TWIC was not tested on vessels, which will 
rely on wireless telecommunications access, is troubling. Additionally, 
that the card used during the Pilot program did not meet the FIPS-201 
standard required by Homeland Security Presidential Directive 12 and 
that the card formally deployed must do so, is also a significant 
concern. Changing out the underlying technology in essence negates all 
aspects of the TWIC pilot program beyond initial application 
processing.
    We appreciate the August 16 announcement by TSA and Coast Guard 
that they would change the approach to TWIC deployment to address card 
issuance processes in the first phase and holds off on infrastructure 
(i.e., card readers) installation and usage to a second phase. However, 
as welcome as this approach may be, it does present a distinct 
possibility that cards issued during Phase I will not operate in the 
technology ultimately selected for Phase II.
    Recently, the U.S. Maritime Administration Ship Operations 
Cooperative Program, has successfully tested its Mariner Access Card, 
which will use technologies and processes similar to those proposed for 
TWIC. The initial reports are very positive, and we are optimistic that 
the technologies proposed will work in the maritime environment. 
However, this has yet to be used in any operating capacity and we 
therefore remain concerned that TSA does not deploy a full-scale roll-
out without additional testing.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ted Stevens to 
                           George P. Cummings
    Question 1. Much was made in Congress about the proposed 
acquisition of U.S. port terminal leases by Dubai Ports World. Would 
the controversy have been nullified had the TWIC program been in place?
    Answer. Implementation of the TWIC program would have mandated that 
all individuals to be granted unescorted access to the restricted areas 
of the terminal would have to qualify for a TWIC card, regardless of 
their position in the company. This would have ensured that all of 
these individuals were legally present in the United States.

    Question 2. From your experiences regionally, what are the greatest 
impediments to nationwide implementation of TWIC?
    Answer. The selection of the technology to be used in the card 
readers will be critical. The technology identified in the Notice of 
Proposed Rulemaking would have required a full contact card and a PIN 
number for each entry. This would have caused major delays at terminal 
gates. We were in agreement with the recent change to the proposed 
regulation to delay the requirement for installation of card readers at 
facilities until a system is identified that can read cards and 
biometrics rapidly enough that back-ups do not occur at marine terminal 
gates.
    Also, there may be a significant impact to the population of truck 
drivers that haul containers in and out of the port if a large number 
of these drivers are not eligible for the TWIC card.

                                  <all>

</pre></body></html>
